<html>
<title> - STRENGTHENING COMMUNITIES: AN OVERVIEW OF SERVICE AND VOLUNTEERING IN AMERICA</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
 STRENGTHENING COMMUNITIES: AN OVERVIEW OF SERVICE AND VOLUNTEERING IN 
                                AMERICA
=======================================================================



                                HEARING

                               before the

                        SUBCOMMITTEE ON HEALTHY
                        FAMILIES AND COMMUNITIES

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, FEBRUARY 27, 2007

                               __________

                            Serial No. 110-5

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html



                      U.S. GOVERNMENT PRINTING OFFICE
33-395 PDF                    WASHINGTON  :  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government
Printing Office Internet:  bookstore.gpo.gov Phone:  toll free (866)
512-1800; DC area (202) 512-1800 Fax: (202)512-2250 Mail: Stop SSOP,
Washington, DC 20402-0001 



                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Bob Inglis, South Carolina
Raul M. Grijalva, Arizona            Cathy McMorris Rodgers, Washington
Timothy H. Bishop, New York          Kenny Marchant, Texas
Linda T. Sanchez, California         Tom Price, Georgia
John P. Sarbanes, Maryland           Luis G. Fortuno, Puerto Rico
Joe Sestak, Pennsylvania             Charles W. Boustany, Jr., 
David Loebsack, Iowa                     Louisiana
Mazie Hirono, Hawaii                 Virginia Foxx, North Carolina
Jason Altmire, Pennsylvania          John R. ``Randy'' Kuhl, Jr., New 
John A. Yarmuth, Kentucky                York
Phil Hare, Illinois                  Rob Bishop, Utah
Yvette D. Clarke, New York           David Davis, Tennessee
Joe Courtney, Connecticut            Timothy Walberg, Michigan
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director
                                 ------                                

            SUBCOMMITTEE ON HEALTHY FAMILIES AND COMMUNITIES

                 CAROLYN McCARTHY, New York, Chairwoman

Yvette D. Clarke, New York           Todd Russell Platts, Pennsylvania,
Carol Shea-Porter, New Hampshire       Ranking Minority Member
Dennis J. Kucinich, Ohio             Howard P. ``Buck'' McKeon, 
Raul M. Grijalva, Arizona                California
John P. Sarbanes, Maryland           Bob Inglis, South Carolina
Jason Altmire, Pennsylvania          Kenny Marchant, Texas
John A. Yarmuth, Kentucky            Luis G. Fortuno, Puerto Rico
                                     David Davis, Tennessee


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on February 27, 2007................................     1
Statement of Members:
    Altmire, Hon. Jason, a Representative in Congress from the 
      State of Pennsylvania, prepared statement of...............     1
    McCarthy, Hon. Carolyn, Chairwoman, Subcommittee on Healthy 
      Families and Communities, Committee on Education and Labor.     2
    Platts, Hon. Todd Russell, Senior Republican Member, 
      Subcommittee on Healthy Families and Communities, Committee 
      on Education and Labor.....................................     4
    Sarbanes, Hon. John P., a Representative in Congress from the 
      State of Maryland, prepared statement of...................     2
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, Co-Founder and Co-Chair, National 
      Service Caucus, prepared statement of......................    22

Statement of Witnesses:
    Daigle, Thomas, former AmeriCorps member.....................    33
        Prepared statement of....................................    35
    Edelman, David R., former AmeriCorps*NCCC member.............    29
        Prepared statement of....................................    31
    Eisner, David, CEO, Corporation for National and Community 
      Service....................................................     5
        Prepared statement of....................................     7
    Gomperts, John S., president, Civic Ventures; CEO, Experience 
      Corps......................................................    24
        Prepared statement of....................................    26
    Moore, George, executive director, Community Progress Council    37
        Prepared statement of....................................    38


                       STRENGTHENING COMMUNITIES:


                       AN OVERVIEW OF SERVICE AND
                        VOLUNTEERING IN AMERICA
                              ----------                              


                       Tuesday, February 27, 2007

                     U.S. House of Representatives

            Subcommittee on Healthy Families and Communities

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2175, Rayburn House Office Building, Hon. Carolyn McCarthy 
[chairwoman of the subcommittee] presiding.
    Present: Representatives McCarthy, Clarke, Shea-Porter, 
Grijalva, Sarbanes, Yarmuth, Platts, and McKeon.
    Staff present: Tylease Alli, Hearing Clerk; Alejandra Ceja, 
Senior Budget/Appropriations Analyst; Adrienne Dunbar, 
Legislative Fellow, Education; Denise Forte, Director of 
Education Policy; Lamont Ivey, Staff Assistant, Education; 
Danielle Lee, Press/Outreach Assistant; Stephanie Moore, 
General Counsel; Joe Novotny, Chief Clerk; Rachel Racusen, 
Deputy Communications Director; Robert Borden, General Counsel; 
Kathryn Bruns, Legislative Assistant; Taylor Hansen, 
Legislative Assistant; and Brad Thomas, Professional Staff 
Member; Linda Stevens, Chief Clerk; and Kim Zarish-Becknell, 
Legislative Counsel.
    Chairwoman McCarthy [presiding]. The hearing will come to 
order. A quorum is present. The hearing of the subcommittee 
will come to order.
    Welcome to the first hearing of Healthy Families and 
Communities Subcommittee. The purpose of today's hearing is to 
provide an overview of national service programs.
    Pursuant to committee rule 12(a), any member may submit an 
opening statement in writing, which will be made part of the 
permanent record.
    [The prepared statement of Mr. Altmire follows:]

Prepared Statement of Hon. Jason Altmire, a Representative in Congress 
                     From the State of Pennsylvania

    Thank you, Chairwoman McCarthy. It is a great honor for me to serve 
on this Subcommittee in this Congress and I look forward to working 
under your leadership.
    I would like to extend a warm welcome to all of the witnesses. I 
appreciate the time you are taking to be here and I am eager to hear 
your views on volunteering in America.
    Volunteers are a large part of what makes America such a great and 
strong nation. Throughout this country volunteers fill in gaps where 
local, state and federal governments are unable to effectively serve 
people. Further, the community-minded spirit fostered by volunteer 
activity benefits all people by strengthening the fabric of our nation.
    The two acts we are here to discuss today, the National and 
Community Service Act of 1990 (NCSA) and the Domestic Volunteer Service 
Act of 1973 (DVSA), authorize a total of six community service 
programs, which represent the majority of the federal government's 
involvement in the volunteer world. These programs are designed to 
promote currently unmet human, educational, environmental and public 
safety needs and to renew a sense of civic responsibility by 
encouraging citizens to participate in national service programs. These 
programs both support pre-existing government agencies and non-profit 
organizations and create new service organizations to meet needs that 
are not currently being addressed.
    Western Pennsylvania has benefited dramatically from the specific 
service programs that are made possible by NCSA and DVSA. In western 
Pennsylvania, these programs include tutoring children who are at risk 
for falling behind academically, helping to staff and administer Adult 
Education classes, providing services to the homeless, and increasing 
HIV/AIDS awareness.
    In 2005, nearly 500,000 people volunteered through programs 
authorized under either NCSA or DVSA. I know that the Corporation for 
National and Community Service has ambitious goals to increase this 
number. It is my sincere hope that these goals are met and that service 
programs continue to play an integral role in improving our nation.
                                 ______
                                 
    [The prepared statement of Mr. Sarbanes follows:]

   Prepared Statement of Hon. John P. Sarbanes, a Representative in 
                  Congress From the State of Maryland

    Chairwoman McCarthy, working alongside people of all backgrounds, 
Dr. Martin Luther King, Jr. encouraged Americans to come together in 
service to others because he recognized that service could be a great 
equalizer in society. ``Everybody can be great,'' he said, ``because 
everybody can serve.''
    Service has always factored heavily in my life. Providing Americans 
with the opportunity to serve and encouraging more to do so is a means 
by which we can reinvest in America and rebuild the reputation of this 
great democracy abroad. As Dr. King recognized, we can accomplish so 
much together if Americans of every age, gender, race, and social or 
economic background contribute to our democracy through service.
    AmeriCorps, for example, has proven the value of service in 
thousands of towns and communities across the country. Schools today 
are struggling with a host of issues; among them are teacher shortages 
and a lack of sustainable incentives to attract bright and talented 
young adults to the teaching profession. AmeriCorps teachers leave 
their service experience fueled with a sense of responsibility to 
under-resourced communities and a passion to teach. Hundreds of 
thousands of lives have been changed for the better because of the 
dedication and hard work of our AmeriCorps volunteers. But it is not 
enough--we can do much more.
    Our nation desperately needs a restored sense of greatness, a sense 
of purpose and a renewed sense of civic responsibility. That we have 
largely neglected national service programs since 1993 when President 
Clinton first created AmeriCorps is a disgrace. By reinvigorating 
national and community service programs, we feed our democratic spirit 
and cultivate citizenship. We bolster the best of what citizenship is 
about, being engaged in democracy through service. The result will be 
more vibrant communities and a stronger America, cultivated through 
experiences that all people can share regardless of their background. 
No young American should be deprived of these opportunities due to a 
lack of commitment from Washington.
    I would like to thank the Chairwoman for having this hearing. Your 
commitment to service and volunteering in America is clear and I look 
forward to working with you to strengthen and expand service programs.
                                 ______
                                 
    Chairwoman McCarthy. I now recognize myself, followed by 
the gentleman from Pennsylvania, Ranking Member Platts, for an 
opening statement.
    I am so pleased that the Healthy Families and Communities 
Subcommittee is holding its first hearing on the issue of 
national volunteer service.
    And I would like to thank our very distinguished panelists 
today for their testimony and for their commitment to national 
service.
    I would also like to say that I am looking forward to 
working with Ranking Member Platts, who is the co-chair of the 
National Service Caucus. On these issues, we will move ahead 
together.
    National service has a distinguished and strong history in 
our nation. Our roots in service extend back to the first 
pioneers, when colonists had to ban together to overcome the 
challenges of surviving and adjusting to a new land. Since the 
time of the formation of our nation, Americans have volunteered 
to help each other in times of war, tragedy and need.
    Benjamin Franklin started the first volunteering 
firefighter company. In 1933 during the Depression, President 
Roosevelt started the Civilian Conservation Corps to renew the 
nation's destroyed forests. And during World War II, the Office 
of Civil Defense was formed to organize support for the war 
efforts.
    In 1961, President Kennedy started the Peace Corps, and in 
1970 President Nixon started the National Center for Voluntary 
Action. More recently, President H. W. Bush started the Points 
of Light Foundation, President Clinton started AmeriCorps, and 
President George W. Bush created USA Freedom Corps in his 2002 
State of the Union address.
    Evidence shows that service and volunteering lowers dropout 
rates among teens, lowers crime rates in communities with high 
rates of volunteerism, lowers costs associated with the aging 
population and improves the health and lowers the rates of 
depression among the elderly.
    Volunteering is a cost-effective way of meeting our 
nation's social needs, both from the standpoint of the 
volunteers and the people who benefit from the services.
    Today, we will hear from witnesses about current national 
service programming, including AmeriCorps, Senior Corps and 
Learn and Serve America. In my home state of New York, more 
than 76,000 people of all ages and backgrounds are helping to 
meet local needs and strengthen communities.
    There are 239 national service programs in New York alone. 
In my district, we have more than 1,300 service volunteers, and 
we have almost 3,000 students, age K through 12, that 
participate in the Learn and Serve programs.
    Our national service volunteers tutor and mentor youth, 
help build houses, clean parks and streams, help communities 
respond to disasters, including Hurricanes Katrina and Rita and 
9/11. They provide leadership in managing community projects 
and help conduct safety patrols in the neighborhoods. The 
volunteers who give their time are from diverse backgrounds and 
span all generations.
    I truly believe that expanding national service, 
particularly to disadvantaged youth, is an effective way to 
combat things like youth gangs and violence, and the evidence 
bears that out. And it is critical that we begin teaching about 
participation and service at an early age.
    I am looking forward to learning from this and other 
hearings we will hold on this issue how we can mobilize more 
volunteers, ensure a brighter future for all of America's 
youth, engage students in communities and harness the 
experience of our seniors.
    With that, I now yield to the distinguished ranking member, 
Mr. Platts, for an opening statement.
    Mr. Platts. Thank you, Madam Chairwoman. I appreciate your 
holding this hearing on the importance of volunteering and 
service in our great country. And I especially want to 
congratulate you on your chairmanship and very much look 
forward to working with you on this and many other issues, our 
shared interest in and dedication to.
    And I think it is so appropriate that we begin with this 
topic, which really sets a great tone for the rest of this term 
on the issues of healthy families and communities. So, again, 
congratulations on your new chairmanship.
    Chairwoman McCarthy. Thank you. I am looking forward to 
working with you.
    Mr. Platts. For over 13 years, the Corporation for National 
and Community Service, CNCS, an independent federal agency 
tasked with administering federally funded service programs, 
has been coordinating community service efforts around the 
country through its three main programs: Senior Corps, 
AmeriCorps and Learn and Serve America. CNCS helps Americans 
give back to the communities and nation.
    The purpose of today's hearing is to learn more about our 
nation's community service efforts and discuss ideas for 
legislation to reauthorize programs administered through the 
CNCS. Programs governed by CNCS receive funding through two 
federal statutes: the National Community Service Act and the 
Domestic Volunteer Service Act. The authorizations for both of 
these programs expired in 1996; however, funding has been 
continued through annual appropriations legislation.
    As a co-chair of the National Service Caucus, with 
Representatives Chris Shays, Doris Matsui and David Price, I am 
especially pleased that we are holding this hearing today. It 
is important to learn about the most productive ways that we 
can target and leverage federal resources to expand service 
programs.
    I look forward to hearing the testimony regarding 
innovative ways which service programs have provided assistance 
to needy individuals and their families. I also look forward to 
discussing improvements that we can make to these vitally 
important programs.
    As the subcommittee considers a reauthorization of these 
programs this year, we must focus on crafting legislation which 
strengthens service programs, while focusing also on 
accountability.
    Finally, I want to thank again our witnesses that Madam 
Chair referenced. We appreciate your efforts in being here 
today, the written testimonies, which gives us some great 
insights to your various perspectives on these programs and 
look forward to the opportunity to give and take with you once 
we get into the questions.
    So with that, Madam Chairwoman, I yield back.
    Chairwoman McCarthy. I thank you, Mr. Platts, and I hope 
you will allow me to join your caucus. I would love to be a 
part of the membership.
    Mr. Platts. We would be honored to have you.
    Chairwoman McCarthy. Thank you.
    I see that a number of members have joined us: Ms. Clarke 
from New York, my great city. I see that Mr. Sarbanes from 
Maryland is here, and John Yarmuth from Kentucky has joined us.
    And I thank you for joining us, gentlemen.
    Today we will be hearing from two panels. On the first 
panel, we hear from Mr. David Eisner. On the second panel, we 
will hear from four witnesses: John Gomperts, David Edelman, 
Thomas Daigle and George Moore.
    At this time, I would like to introduce our very 
distinguished first witness, Mr. David Eisner. Since 2003, Mr. 
Eisner has been the chief executive officer of the Corporation 
for National Community Service.
    He is a nationally recognized leader in organization 
effectiveness and has focused his efforts on making the 
corporation's programs more effective and accountable. He has 
vast experience in the volunteering and nonprofit world and 
brings a great deal of consistency, predictability and value to 
the corporation's programs.
    Prior to coming to the corporation, Mr. Eisner was vice 
president at AOL-Time Warner, where he directed the company's 
charitable foundation. He is no stranger to the Hill, having 
served as a press secretary for three members of Congress.
    Welcome, sir, and we are looking forward to your testimony.
    Mr. Eisner. Thank you, Madam Chairman.
    Chairwoman McCarthy. Before you start, I need to explain, 
this is my first time up here, so if you hear me make some 
mistakes, I am just nervous. [Laughter.]
    So before you begin, let me explain our lighting system and 
the 5-minute rule.
    Everyone, including members, is limited to 5 minutes of 
presentation or questioning. The green light is illuminated 
when you begin to speak. When you see the yellow light, it 
means you have 1 minute remaining. When you see the red light, 
it means your time has expired and you need to conclude your 
testimony.
    Please be certain as you testify to turn on and speak into 
the microphone in front of you.
    We will now hear from the first witness.

 STATEMENT OF DAVID EISNER, CEO, CORPORATION FOR NATIONAL AND 
                       COMMUNITY SERVICE

    Mr. Eisner. Thank you, Madam Chairwoman, Congressman 
Platts, members of the committee. I appreciate the opportunity 
to testify here today about the role of service and 
volunteering in America.
    What I want to do today is spend some time talking about 
the corporation and our programs, talk about how service is an 
effective intervention and some of the key areas we need to 
focus on and why we are at a moment of opportunity today.
    As the chairwoman did, the corporation starts from the 
premise that our communities are at their best, healthiest and 
most effective when citizens partner to tackle the toughest 
problems that we are facing: gangs, crime illiteracy, teen 
pregnancy, high school dropouts and the divide between haves 
and have-nots.
    The corporation exists to bolster and strengthen what the 
president calls the armies of compassion. We do this through 
five powerful programs.
    Senior Corps: Through foster grandparents, senior 
companions and RSVP, our Senior Corps programs engage 500,000 
older Americans in meeting pressing needs in their communities.
    AmeriCorps: 75,000 Americans are engaged in this program to 
do intense service through the network of nonprofits that 
supports our country, and in return they receive and education 
award of $4,725.
    VISTA is AmeriCorps' anti-poverty and capacity-building 
arm. NCCC is AmeriCorps' high-intensity, residential, team-
based program for 18-to 24-year-olds. And Learn and Serve 
America brings service together in a contextual learning 
environment for 1.3 million students in K-12 through college.
    Now, service can change people's lives in a dramatic way. 
And if we look at some examples, look at children of prisoners. 
These are youth and children living often in tough 
circumstances, and they themselves have a 70 percent likelihood 
of ending up following their parents into jail or prison. And 
yet we know that having a mentor can cut that likelihood in 
half.
    Look at children in foster care and the ones who are aging 
out--20,000 a year. Again, we see extremely high likelihood 
that these children could end up homeless, potentially going to 
prison or having other kinds of behavior that is not likely to 
lead to success in their future lives.
    And yet the citizen, by reaching out, can dramatically 
change the chances that this young child can succeed. We have 
VISTAs who deliver citizens to mentor foster care kids as they 
get out of foster care.
    But we think that the real important is to focus on youth, 
not as recipients of service or as clients but as assets. Mrs. 
Bush and the Helping America's Youth initiative reminds us that 
when people participate in service they get confidence, they 
feel empowered, they are able to focus on what they need to do 
to turn their own lives around, because they have already been 
focusing on how to be effective in their community and how to 
turn lives around in their communities.
    So we have seen all of this power on display in the Gulf 
after Katrina. Thirty-five thousand participants of our 
national service programs have been down in the Gulf, changing 
lives, rebuilding communities and re-fostering the civic ethic 
that is there in the Gulf coast. And partly as a result of 
their efforts, we have seen 500,000 other citizens 
participating.
    But what I hope to leave you with is that we are currently 
at a moment of extraordinary opportunity. Our research shows us 
that volunteering in America is around a 30-year high over 
multiple years. Over the next decade we are going to see 
boomers driving our demographics so that we will see 86 million 
Americans over 65 compared to 35 million today.
    But most important, and the last that I will leave you 
with, we see today 16- to 19-year-olds 100 percent more likely 
to volunteer than they were in the 1970s, 1980s and 1990s. 
These young Americans want to be asked how they can help solve 
some of the challenges in our country and in our communities. 
We need to fan that spark and find ways to ask them.
    Thank you.
    [The statement of Mr. Eisner follows:]

 Prepared Statement of David Eisner, CEO, Corporation for National and 
                           Community Service

    Chairwoman McCarthy, Congressman Platts, members of the 
Subcommittee, I appreciate the opportunity to testify before you today 
about the role of service and volunteering in America.
    Service is a strong and powerful point of leverage for America 
because it taps into America's greatest strength--her citizens. Across 
America, our communities are at their best, healthiest and most 
effective when citizens partner to tackle our toughest problems: gangs, 
crime, drugs, homelessness, illiteracy, children aging out of foster 
care, elder care, drop outs, teen pregnancy and the divide between 
haves and have-nots. In fact, the power of American citizens in 
service--and in partnership with our social service delivery 
mechanisms--gets at the heart of nearly every issue under this 
committee's jurisdiction.
    The Corporation for National and Community Service exists to 
bolster and strengthen these armies of compassion and through them the 
health of America's communities. Our mission is to improve people's 
lives, strengthen communities and foster civic engagement through 
service and volunteering.
    Today, we are witnessing an extraordinary convergence that makes 
this mission more powerful than it has ever been before. On the one 
hand, the need for our armies of compassion, of citizens armed with 
idealism and determination, has never been greater to improve the 
trajectory of the lives of young people and families struggling to 
reconnect to the American dream. On the other hand, we are at the same 
time experiencing the birth of a once in a lifetime kind of shift 
toward service, volunteering and civic engagement. Coming out of the 
smoke and ashes of 9/11 we saw Americans engaged in extraordinary acts 
of compassion. In his 2002 State of the Union address, the President 
issued a call to service in which he asked all Americans to devote 
4,000 hours of their lives, or two years, to service. He has worked 
hard to rally our armies of compassion and to engage citizens in moving 
away from the role of spectator, toward an embrace of service as a 
strategy for addressing some of our most intractable problems.
    And millions of Americans have answered that call. Today, our 
research shows that overall volunteering in America is at a 30-year 
high. More than 2 million more Americans are volunteering than in the 
year following 9/11. Led by older teens, Baby Boomers, and Americans 
over 65, our citizens are reinventing America's entrepreneurial spirit 
at the community level and they are rolling up their sleeves to tackle 
the hard work. We at the Corporation are dedicated to doing everything 
we can to grow this surge of civic engagement and to ensure that these 
dedicated Americans have every tool at their disposal to make their 
service meaningful and effective, so that together we can solve 
problems and restore hope in our communities.
    There is one trend in particular to which we must pay careful 
attention: older teens today are more than twice as likely to serve and 
volunteer as older teens in the proceeding three decades. Teens today 
are twice as likely to volunteer than teens in the '70s, '80s and '90s. 
We also know that the strongest predictor of whether a person 
volunteers as an adult is whether he or she has volunteered in their 
youth. More than anything, this is the trend that is worthy of all of 
our consideration and as much effort as we can collectively expend, 
because, if we get it right, our communities and our nation could 
become the beneficiaries of an entire generation that is as dedicated 
to engagement and problem solving as what we now think of as the 
Greatest Generation, that reached about the same age at the onset of 
World War II.
    Much of the power of this vision has been on display since we 
confronted the worst natural disaster in our history in 2005. Hurricane 
Katrina revealed nature at its worst. But it also showed America at its 
best. Thousands of volunteers came from across the United States in an 
unprecedented outpouring to help the residents of the Gulf coast. More 
than 35,000 national service participants contributed nearly 2 million 
hours of service to the hurricane relief and recovery efforts--clearing 
tons of debris, serving hundreds of meals, mucking and sanitizing 
thousands of homes, and most importantly renewing the hope of families 
and communities struggling to rebuild. And they have been a significant 
contributor to the more than 500,000 community volunteers who have 
served in the Gulf. Hurricane Katrina was a defining moment for 
national service. Disaster hit and we responded immediately.
    But the compassion we see in the Gulf was not an isolated event; it 
happens every day in cities and towns across America.
    We see our powerful national service programs and idealistic 
members and program participants as an important part of the 
scaffolding upon which our communities build some of their most 
effective citizen engagements and community volunteer activities. The 
five major national service programs that the Corporation supports are 
all dedicated to supporting serious problem solving through citizen 
engagement.
    For 40 years, Senior Corps programs have been at the forefront of 
engaging older Americans in meeting pressing needs. Through the Foster 
Grandparent program, older Americans spend an average of 20 hours a 
week inside the schools and youth centers of some of America's most 
poverty stricken communities, supporting and mentoring children who 
need to know that a caring adult is on their side. And Senior 
Companions come into the homes to maintain the dignity and independence 
of those who are otherwise too frail or elderly to live on their own. 
RSVP connects older Americans with a plethora of service opportunities 
through more than 70,000 nonprofit and faith-based groups across the 
country. In total, more than 500,000 older Americans serve their 
communities through one of these Senior Corps programs.
    The basic deal of AmeriCorps is simple: idealistic Americans spend 
a year of service helping meet critical needs in education, public 
safety, health and the environment. And at the end of their year of 
service AmeriCorps members receive a scholarship of $4,725 to pay for 
their future education--or to repay their student loans. The AmeriCorps 
network of local, state, and national service programs engages more 
than 75,000 Americans in intensive service each year. AmeriCorps 
members serve through thousands of nonprofits, public agencies, and 
faith-based and community organizations.
    Later this year, AmeriCorps will reach a milestone when more than 
500,000 Americans have taken the pledge to ``Get Things Done.'' And I'm 
proud to note than most of those members will have taken that pledge 
since President Bush took office.
    VISTA is the anti-poverty and capacity building arm of AmeriCorps, 
born out of the War on Poverty and 6,600 strong. These VISTAs are 
America's domestic equivalent to Peace Corps volunteers, living, 
serving, and bringing meaningful change to America's most poverty-
stricken communities by engaging their citizens in the arduous work of 
lifting themselves out of poverty.
    Under AmeriCorps' NCCC (National Civilian Community Corps), 
dedicated 18-24 year-olds receive special training and work in full-
time team-based residential programs and travel across the country to 
tackle one urgent problem after another; their rapid ability to deploy 
and expertise were on particular display during the aftermath of 
Hurricane Katrina, where they were among the first on the ground and 
remain a strong force multiplier today.
    Learn and Serve America is the on-ramp to a lifetime of service. 
Through educational grants to K-12 schools, universities, and community 
organizations, Learn and Serve America fosters service-learning 
programs nationwide. Service-learning is a teaching method that 
combines service with classroom learning. All of our research shows 
that service-learning reduces risky behavior, improves academic 
achievement, and is the best predictor of a child's civic engagement as 
an adult.
    Part of the power of the national service network is that in every 
state and territory we have governor-appointed state service 
commissions. Commissions oversee most of the national service 
activities in each state, especially AmeriCorps programs and the 
Commission is also usually the organization charged by the Governor 
with encouraging volunteering and civic engagement statewide and 
driving key statewide social priorities like literacy and mentoring. 
The Corporation also has field offices representing and providing 
additional resources to every state and territory.
    Another ingredient of the success of national service is that it is 
a public-private partnership. Each year the Corporation's grantees 
collectively raise $375 million in non-Corporation funds--and the vast 
majority of these funds are private. This partnership helps to leverage 
federal dollars and ensures local buy-in for the programs we fund.
    A growing body of research demonstrates that volunteers not only 
improve reading scores when they tutor, or make it more likely that 
youth will be successful in life by mentoring, but the thousands of 
things volunteers do represent the social glue that translates into the 
health of our communities. Just as one can build financial capital, 
individuals who volunteer build a community's ``social capital.'' 
Americans who volunteer are also likely to vote, know their neighbors, 
and be engaged in local affairs. Indeed, you will find that communities 
with higher levels of volunteering are also places where people have 
greater trust and knowledge of their neighbors. This means that 
communities with a higher level of volunteering and other forms of 
community life exhibit such attributes as strong parental engagement in 
schools, low crime rates, and even economic prosperity.
    As the Subcommittee considers the opportunities that service 
provides to create healthier families and communities, I'd like to 
quickly hit on some of the challenges where the upside of citizen 
engagement is the most compelling, where American citizens have the 
best opportunities to make a difference in the lives of those who are 
hurting and to solve some of the key issues that plague America today.
    The President has often spoken of the challenge of supporting the 7 
million children who have one or more parent in prison. Without 
effective intervention, 70 percent of these children are likely to 
follow their parents' path, ending up in prison themselves. Corporation 
programs are engaging citizens across the country to make inroads in 
combating this generational despair.
    One of the projects we support is a program, Amachi, which was 
started in Philadelphia by the former mayor, the Reverend Wilson Goode. 
Amachi engages, trains and supports Americans, mostly from the faith 
community, who take on the challenge and reward of mentoring children 
of prisoners. We know that one volunteer mentoring a child of a 
prisoner can cut the likelihood of that child going to prison in half. 
With our VISTA members, AmeriCorps grants, and Senior Corps 
participants supporting a rapid scaling strategy, Amachi has grown.
    Another great challenge facing us is the 20,000 young people who 
age out of the foster care system each year. At a crucial age when so 
many Americans are being shepherded by their parents, many of these 
kids have no one to help them get a job or continue their education.
    We have AmeriCorps VISTA members helping bridge that gap for this 
vulnerable population in many different states. In California, for 
example, the Foster Youth Empowerment Service Center serves at-risk 
children and youth in the high desert region of San Bernadino County. 
The program concentrates on foster youth who have become or are in 
danger of becoming homeless when they age out of foster care. The 
center brings together crucial resources to foster youth ages 16 to 21. 
VISTAs set up a database to establish each youth's needs and goals and 
they coordinate with community partners to develop programs to assist 
young people in designing an individual transition plan based on the 
youth's needs assessment.
    And in Washington state, we are about to launch a crucial VISTA 
program that provides mentors for children aging out of care. Without 
these key interventions, many of these young people would fall into 
lives of crime and despair.
    Too often people think of disadvantaged youth as clients to be 
served instead of leaders and problem solvers. As the First Lady has 
made clear with her Helping America's Youth initiative, society is 
better served when we understand that children are our best assets. 
When you connect disadvantaged youth to service, you build their 
confidence, give them a sense of personal responsibility, lower their 
sense of victim hood, and give them a tangible sense that they can make 
a difference in their life and the lives of others.
    While the problems are great, we can work towards solutions. 
According to the National Institute on Drug Abuse, 15 percent of 
America's teens use illicit drugs and the abuse of prescription drugs 
is on the rise: Oxycontin use among eighth graders has doubled since 
2002 and one in ten high school seniors abuse Vicodin. The Office of 
Juvenile Justice and Delinquency Prevention reported in 2003 that 23 
out of every 1000 teenage girls aged 15-17 became teen mothers and 18 
percent of America's youth live at or below the poverty level. An 
estimated 760,000 youth are involved in gangs. The FBI reports that in 
2005 law enforcement agencies arrested 1.5 million young people under 
the age of 18; therefore youth account for 15 percent of all arrests. 
We can prevent more young people from becoming part of these crime 
statistics not only by providing services to them, but by engaging them 
in supporting their own communities.
    We have research showing when we engage disadvantaged youth in 
service, we greatly enhance their chances for success. Kids engaged in 
serving their own troubled communities are less likely to engage in 
risky behavior, are more likely to graduate and go to college. In fact, 
service is one of the best and most effective interventions for youth 
in disadvantaged circumstances, one of the most compelling reasons that 
service is no longer simply a nice thing to do; it is necessary to the 
health of our nation.
    Let me give you an example of how this works. In Nassau County, 
Queens and Brooklyn, New York, a network of schools, colleges, and 
community and faith-based organizations called the Schools Partnership 
Collaboration or SPARC, foster service-learning for more than 1600 
students in public and private schools. Minneola High School is the 
lead school and partners closely with Holy Cross High School in Queens. 
Each of the schools conducts multiple service projects in the local 
community. Projects include outreach to veterans and working on 
literacy and enrichment activities with elementary schools and the 
Hispanic Counseling Center School Age Child Care program. By engaging 
young people in service, this program greatly increases their self 
esteem and reinforces classroom learning.
    Think of the power of engaging our young people who are not 
contending with disadvantaged circumstances. Imagine if on every 
college campus we engaged students in solving some of the problems of 
their local communities. We know from a study we published last fall 
that college student volunteering is up--by 20 percent. But still only 
one-third of students on campus volunteer; that's not enough. We have 
more work to do to engage the other two-thirds to make a powerful 
difference in the lives of young people in communities across America.
    And the opportunity to use service as an intervention that can 
change the course of the life of the person serving is not only 
applicable to youth. Some of our most powerful work is going on in 
connecting citizen service with the field of prisoner re-entry. Never 
before in our society have we had more people coming out of prison than 
going in. Nearly 650,000 people are released from state and federal 
prison yearly and arrive on the doorsteps of communities nationwide. A 
far greater number re-enter communities from local jails, and for many 
offenders and defendants, this may occur multiple times in a year. 
According to the Department of Justice, over 50 percent of those 
released from incarceration will be in some form of legal trouble 
within 3 years. Among some populations recidivism can reach as high as 
80 percent.
    Those coming out of prison need a job, a place to live, and 
connection to society. It's the connection to society that can serve as 
a gateway to all of the elements of success, supporting them in getting 
a job and a place to live, connecting them to faith-based and community 
groups that give them a sense of purpose and creating a gateway for 
them to thrive.
    In fact, we are particularly excited about service work in the 
realm of re-entry because we are building powerful models of 
collaboration with other federal agencies. In 30 cities we have 140 
VISTAs who are participating with community based organizations 
collaborating with Department of Justice Weed and Seed sites to build 
re-entry programs.
    One of these great re-entry projects is the Potter's House in the 
Dallas area which sponsors a VISTA program that works with local 
Department of Justice Weed and Seed sites. The VISTAs serve in five 
cities with the highest number of prisoners being released into the 
state of Texas. The VISTAs recruit and create volunteer curricula for 
training mentors and volunteers on how to best meet the needs of this 
population. The VISTAs also link resources to ex-offenders so they have 
the opportunity to succeed and not recidivate back to the prison 
system.
    In Bend, Oregon, one of our AmeriCorps grantees--a group called 
Civic Justice Corps--engages prison inmates in meaningful service. 
Sadly, the director Dennis Maloney, passed away earlier this month. But 
before his passing, he built an incredible program.
    Dennis gave up a promising NFL career to become a VISTA member. 
After VISTA, he started work in the field of corrections and eventually 
became a prison warden. Knowing the power of service from his VISTA 
days, Dennis encouraged the prison staff to create service projects to 
engage the inmates rather than impose harsh penalties from the top 
down. Inmates didn't serve in punitive ways--such as in chain gangs, 
but in constructive ways. The community loved the idea. The inmates 
built the Bend Child Abuse Advocacy Center, Habitat for Humanity homes, 
and a local homeless shelter. They served their community and they also 
received great job skills. Because of Dennis' work, 30 states have 
rewritten the purpose clause of their juvenile code to include service 
as part of their juvenile justice systems.
    As we look at all of these pressing issues, we must remember to 
view them as part of the large demographic shift that is taking place 
in America. We are moving into a time where our traditional workforce 
will be half of what it is today as a percentage of our population. The 
fastest growing age group in America is aged 85 and older, and they are 
a major driver of health care costs. In 2020, approximately 1 in 6 
Americans will be aged 65 or older. By 2050, when the Baby Boomers will 
be age 85 and older, there will be over 86 million people older than 65 
living in the United States, compared to 35 million today.
    Last year with the passage of the Older Americans Act, you 
considered some of these issues. We would urge you, as a Subcommittee, 
as you continue to consider what it means to have healthy families and 
communities, to view this demographic shift as the largest opportunity 
of all. Imagine if retiring Baby Boomer teachers were willing to tutor 
and mentor disadvantaged youth. Or older business people could provide 
business advice and career counseling. Or retired doctors, nurses, and 
trained medical personnel could provide health care services to low-
income and elderly neighbors.
    Last year Corporation programs delivered independent living 
services to over 100,000 frail or elderly Americans. In Pima County, 
Arizona for example, Senior Companions help older or disabled clients 
at a family services program live with more independence and dignity. 
In 2006 alone Senior Companions served nearly 1000 clients. More often 
than not, friendships and long lasting bonds of trust develop between 
Senior Companions and clients, thus lessening the isolation and 
depression that can afflict so many older Americans.
    Despite these great successes, we still have a lot of work to do. 
With our board of directors, the Corporation, has developed a bold 
strategic plan (I have copies here for you today) that is harnessing 
America's volunteers to tackle key problems in this country.
    <bullet> First, we plan to grow the numbers of Americans 
volunteering to 75 million by 2010. To move towards this goal, we have 
made volunteer leveraging a priority in our grants, promoted online 
volunteer matching, are working to enhance volunteer infrastructure, 
management and retention, and we have published half a dozen reports on 
trends in volunteering to serve as a roadmap to best recruit 
volunteers.
    <bullet> Second, by 2010 we hope to increase the numbers of Boomers 
in service by 3.2 million to 29 million. At the White House Conference 
on Aging, we launched a national campaign, called ``Get Involved,'' to 
tap the vast experience of the a highly educated, healthy, and skilled 
cohort of 77 million Baby Boomers to serve and give back.
    <bullet> Third, we will motivate the enthusiasm of college students 
and plan to increase the number of college students engaged in 
community service by 2.7 million to 5 million by 2010. Things are 
moving in the right direction. In a survey of college freshman, the 
Higher Education Research Institute reported that two out of every 
three entering college students believe it is essential or very 
important to help others who are in difficulty, which is the highest 
level it has been in the last 25 years. We were overwhelmed by the 
response to the first-ever President's Higher Education Community 
Service Honor Roll--a program that recognizes outstanding community 
service on college campuses. Over 500 colleges applied in its first 
year.
    <bullet> And finally, we know that service instilled at a young age 
can lead to service habits that last a lifetime and help youth take 
ownership of their problems, rather than feeling like victims. 
Therefore our plan calls to engage 3 million youth and children from 
disadvantaged circumstances in service and provide mentoring to 5.5 
children and youth, since we know that 15 million at risk youth do not 
have a mentor. Last year we launched a Federal Mentoring Council and a 
National Mentoring Working Group, comprised of leading nonprofit and 
private sector groups who work with disadvantaged youth.
    As our Board Chairman Steve Goldsmith, the former mayor of 
Indianapolis, said when the strategic plan was launched, ``We believe 
that a better future for all Americans will include a more widespread 
culture of service, more opportunities for all young people to succeed, 
more schools that encourage citizenship, and more older Americans using 
their lifetime of skills to give back to their communities.''
    We are excited about where we are going as an agency. To help us 
move towards our goals, the President has submitted another strong 
budget request--of $828.7 million--for the Corporation in fiscal year 
2008. This budget, which will support 75,000 AmeriCorps members, over 
500,000 Senior Corps members, and 1.3 million Learn and Serve America 
participants, is an important sign of this nation's commitment to 
service. It also provides key resources, leveraging the work of a 
national network of partners that engage volunteers, from state and 
local government to businesses to nonprofit, faith-based, and community 
groups.
    The challenges our nation faces are daunting. But since the early 
days of this republic, volunteers and an engaged citizenry have made 
America great. Again, we must focus on what we owe today's 16-19 year 
olds, who are twice as likely as the generation before them to 
volunteer.
    Our job is to fan that spark because our nation can't hope to 
achieve its potential unless we all do our part.
    The Corporation's mission--to improve lives, strengthen 
communities, and foster civic engagement through service and 
volunteering--has never been more important or more connected to the 
most pressing social challenges of our day. We look forward to working 
with this committee to meet the challenges of our time.
                                 ______
                                 
    Chairwoman McCarthy. Thank you for your testimony.
    I see that Carol Shea-Porter from New Hampshire has joined 
us, and I appreciate that.
    I want to thank you for your testimony.
    I now recognize myself for 5 minutes.
    Reading your testimony in the last couple of days, you 
mentioned that the President's Higher Education Community 
Service Honor Roll is one way of motivating college students to 
serve. Are you thinking at all about possibly bringing a 
program like that to our high schools?
    Mr. Eisner. Yes. We actually had for a while a presidential 
freedom scholarship where we were honoring service, and it was 
a useful tool to help recognize some levels of service, but we 
weren't seeing that we were driving in any sort of sustainable 
way the kinds of service that was the most effective in the 
community or connecting the school institution.
    The reason that it is important to do in higher ed is 
because we need the institutions to pay attention to their--
usually they have a double motto: ``We are building citizens 
and we are preparing people with skills.''
    In high school, we find that Learn and Serve America, which 
is our service learning program, is a more effective way to try 
to build institutions that connect service to the contextual 
learning environment so that our kids get on to the onramp of 
service.
    Chairwoman McCarthy. My time is up already. Wow. No? Okay.
    Mr. Platts. Your time is never up, Madam Chair. [Laughter.]
    Chairwoman McCarthy. Do you have any suggestions for the 
committee on K-12 or higher ed policies that we should consider 
as we look at these laws, as we go toward reauthorization?
    Mr. Eisner. I think there are a lot of things we should be 
thinking about. Don't have specific proposals at this point for 
the committee, but I will tell you some areas you may want to 
look at. Certainly look at federal work study, which originally 
was conceived to support service activities, and yet that has 
become a smallish portion of the federal work study.
    I also think that we should be doing a better job of 
informing students that when they are getting federal work 
study they are allowed by law to ask their institutions to be 
placed in doing service rather than, for example, cafeteria 
work. So the federal work study is one place.
    I think another place to focus on is in the area of 
professional--teaching our teachers and education certification 
and making sure that service learning is something that our new 
generations of teachers, as they come out of their professional 
education that they know how to do service learning and how to 
engage our kids.
    Chairwoman McCarthy. That is great.
    Mr. Platts, would you like to ask some questions?
    Mr. Platts. Thank you, Madam Chairwoman.
    Again, Mr. Eisner, I appreciate your testimony and your 
leadership for this very important program. I wish I had known 
that about the federal work study when I was in college. I cut 
a lot of grass, raked a lot of leaves on the campus. I would 
rather have been out in the community probably doing service, 
so I am glad to know that and shared that with my institutions 
to encourage their students today.
    There are a host of issues that you touched on that I think 
are so important as we go forward, but the one that in your 
testimony kind of correlates to a subsequent witness, Mr. 
Daigle, in his written statement he says, ``Service sticks.'' 
In other words, if you get started young, it stays with you 
through your lifetime. You touched on that.
    And the impact, the positive impact, such as those children 
of prisoners and getting them engaged, they are less likely to 
be in prison. We try to follow that at home ourselves, my wife 
and I, with our children, 7 and 10, getting them--we ring the 
bell for the Salvation Army each holiday season. We go to help 
serve meals and things.
    Is there any consideration of trying to mesh the work you 
are doing with foster children who are aging out? And is that 
at 18 when they typically age out of foster care?
    Mr. Eisner. They age out at 18. We are trying to work with 
them before that.
    Mr. Platts. Right. Is there any consideration to give them 
additional consideration for going into the NCCC program as a 
way to help them, as instead of being homeless, getting them 
into a residential program of service to try to mesh those two 
areas?
    Mr. Eisner. Yes. In general, we are working within the NCCC 
program to try to make the program more welcoming overall of 
youth from disadvantaged backgrounds. And that is certainly an 
area that within NCCC they would be extremely sensitive to.
    I want to quickly note that Merlene Mazyck, the director of 
NCCC, is here, and that is an area she is attentive to.
    Mr. Platts. Right. It seems it would be a natural match, 
and the evidence and your statistics or the benefits to that 
individual, that foster child, as they are aging out, and to 
the community, again, at large would be significant. Appreciate 
that that is something you are looking at.
    In your testimony, you talk about the various areas, and in 
my own experiences, I have worked with AmeriCorps workers, 
partnered with Habitat, building homes in my district with 
Senior Companions, helping other seniors stay in their home 
settings.
    But you touched on education, public safety, public health, 
environment. What guidelines or what process is involved from 
the national level of deciding we are going to commit this 
amount of grant money to education related or to health care, 
public safety, the environment? Or is that left to really the 
state and local partners more so than a national formula in 
each of those areas?
    Mr. Eisner. It is really right now a combination. A huge 
amount of the consideration starts when we see what the 
application pool looks like in any given year, which helps us 
understand what the demand is.
    But assuming an equal or an unchanging pool, currently the 
board has set four priorities. We particularly want to be 
making sure that we are supporting disadvantaged youth. We want 
to be making sure that we are getting ready for the tsunami of 
the boomers and that we are welcoming them. We want to be 
better engaging students in higher ed to support in their 
communities. And, overall, we want to grow American 
volunteering to 75 million.
    So those are loose guidelines that we use as we construct 
our portfolio. But, again, the two things that are the most 
important is the demand that we are seeing across the portfolio 
and the quality of the individual programs. If an environmental 
service program is doing things that are outstanding with 
volunteers, that is going to be something that we are really 
interested in focusing on, because we want to support social 
entrepreneurship and we want to support excellence through our 
portfolio.
    Mr. Platts. One final question before my time is up, the 
way you break it out there is an annual review of the partners, 
but if they are in the process, they are likely to be renewed 
unless there is some reason not to. Is that a fair statement?
    Mr. Eisner. Every AmeriCorps grant is on a 3-year cycle, so 
their renewal for years 2 and 3 depends on whether they are 
hitting their basic benchmarks, but it is not really an open 
competition. And then for year 4 and for year 7 and so on, they 
engage in an open and pretty rigorous competition.
    Mr. Platts. And those benchmarks are something agreed to 
between the corporation and the partner upfront?
    Mr. Eisner. We put out regulations, and we have moved all 
of our components of the grant-making consideration process 
really into regulations so that our grantees have a really 
solid and reliable understanding of what we are going to use to 
measure them.
    Mr. Platts. Pretty standard across the board?
    Mr. Eisner. Yes.
    Mr. Platts. Okay. Thank you.
    Thank you, Madam Chairwoman.
    Chairwoman McCarthy. I thank you for your questions.
    Generally, the chair will recognize members for questions 
in order of appearance but will additionally take into 
consideration members who stay during the testimony.
    Having said that, the gentlelady from New York, Ms. Clarke, 
is recognized for 5 minutes.
    Ms. Clarke. Thank you very much, Madam Chair, and 
congratulations on this very important hearing, being our first 
hearing and being your first time at the gavel, I understand.
    Mr. Eisner, welcome.
    Mr. Eisner. Thank you.
    Ms. Clarke. I think that it is clear that the answer or 
answers to the issues facing the volunteer community in certain 
programs have a common thread, and your testimony really 
touched on that. And that volunteer work both strengthens 
community bonds and individual members of the community almost 
simultaneously.
    The question that we may not be able to answer right now 
is, where will we find the citizens interested in participating 
in the service programs available to them?
    You talked about the baby boomers, and across the nation we 
know that there is this group that we call the baby boomers. 
Developing the desire to want to give and understand how these 
programs have worked I think is a very importance piece that we 
cannot underestimate, just sort of marketing and getting it out 
there on the ground. And the community, I think in anticipation 
of that, I think will help drive the success of what we are 
talking about.
    I will give you an example. In the mid-1990s, I was the 
director of the Bronx portion of the Empowerment Zone in New 
York City, and there I really believe some great work took 
place. And having access to VISTA in particular where we talk 
about capacity building and really enabling people to empower 
themselves was a great gift that those who participated 
received and those who were the recipients of the work 
received. And what it did too was promote the program and have 
people inquire, ``Well, how do I get into VISTA, how do I 
become a member of AmeriCorps?''
    I just wanted to get a sense of what the growth and 
expansion rate has been for these programs, because, again, I 
think there is nothing that promotes a program more than 
actually hitting the ground and working in communities and 
using that as part of a marketing tool that sort of draws 
people into the program.
    Mr. Eisner. Thank you.
    As far as how the programs have been growing, we are pretty 
close to a high watermark on all of our programs. AmeriCorps 
has 75,000 members as a result of President Bush in 2004 
increasing that by about 50 percent and then maintaining that 
level. And we are seeing since 1993 when it began we have been 
seeing steady growth of almost all the programs. There are some 
exceptions.
    I think one of the amazing things, though, is that we are 
seeing really rapid growth in the number of Americans that want 
to do service. And I want to note that most service--of the 65 
million Americans that served in 2005, next to them the 
national service participants is relatively miniscule.
    The role of national service, I think, we are never going 
to be able to provide opportunities for everyone to serve, but 
we can provide a scaffolding, community by community, that 
allows lots of service to take place.
    Ms. Clarke. In your testimony, you pointed out four main 
goals to advance service participation across all demographics. 
It seems clear that an important facet of these goals is for 
the AmeriCorps education programs, which were originally 
allotted $10,000 per participant in the 1994 budget.
    Do you believe that increasing funding for these programs 
from the current $4,725 would allow for the growth you are 
aiming for? And, furthermore, would that increase allow you to 
afford the original intent under the Clinton administration 
that the program provide greater assistance for low-and middle-
income families pay for college and for the AmeriCorps to 
increase participation by $500,000 per year?
    Mr. Eisner. Well, as you are aware, we have submitted a 
budget that, again, calls for 75,000 AmeriCorps members with 
the ed award at $4,725. I think that there is a real tough 
tradeoff that we have to understand: Do we want to raise the ed 
award potentially at the risk of--within a budget that may not 
grow that much--having fewer members in the program?
    Currently, we are finding that we are able to enroll 
members and even those programs, for example, the Youth Corps, 
that are reaching down into the toughest communities to enroll 
youth that are using AmeriCorps as a wrung up toward a better, 
more successful life, those programs are able to mostly fully 
enroll with the ed award where it is.
    Chairwoman McCarthy. The gentlelady's time has expired. 
Thank you.
    I notice that Mr. Grijalva has joined us. Thank you.
    The next member to speak will be Mr. Yarmuth. The gentleman 
is recognized for 5 minutes.
    Mr. Yarmuth. I thank the chairwoman. Congratulations on 
your first hearing as well.
    Mr. Eisner, thank you for your testimony.
    This committee, the full Committee of Education and Labor 
is going to be reauthorizing No Child Left Behind this year, 
attempting to anyway. Is there a role for national service 
programs in helping to deal with low-performing schools? And if 
so, how do you see that being done?
    Mr. Eisner. Well, across the board we are seeing national 
service programs already doing really strong jobs in low-
performing schools. Our foster grandparents, we are spending, 
on average, 20 hours a week mentoring and tutoring in some of 
the hardest public schools.
    You are also going to hear a little bit later from an 
AmeriCorps program that likewise has older Americans, as 
Experience Corps, making changes. And we are seeing that as we 
get better at measuring results, this kind of citizen 
engagement in the schools actually improves the performance of 
the kids.
    Likewise, across the board we see VISTAs working within 
communities to make schools better, we have huge AmeriCorps 
mentoring programs, and we are also experimenting with programs 
that have college students work with high school students 
almost as mentors or more peer-like counselors to try to lower 
dropout rates and improve academic achievement.
    I think across the board there are enormous opportunities 
for citizens and service to help provide a needed boost in our 
public schools.
    Mr. Yarmuth. Thank you.
    This question may be a little bit off the subject, and if 
the chair thinks it is out of order, please, I invite you to 
rule it out of order. And you may not want to answer, but I am 
curious as to what your opinion might be about the role of 
faith-based initiatives and from a federal government 
perspective how that plays into the type of activity that you 
are involved in and whether there is a role for the federal 
government in supporting faith-based initiatives as well?
    Mr. Eisner. From my perspective, and our agency supports 
many faith-based organizations, the challenge is really simple: 
Where do we best engage citizens to solve problems?
    We draw a couple of lines. No organization is allowed to 
discriminate based on faith or religion or anything else that 
would be objectionable, and we are certainly not providing 
federal dollars in order for any organization to prostyletize.
    Once those are off the table, we find, for example, 
mentoring children of prisoners, it is enormously effective to 
engage a faith-based organization that go into congregations 
and churches and say, ``We need you to help mentor our kids.'' 
And a group like Amachi, which is a faith-based organization, 
has grown from doing this from mentoring 200 kids in 
Philadelphia to now I think 500,000 mentors that they get 
mostly from churches.
    Mr. Yarmuth. Thank you. That is very helpful.
    I yield back.
    Chairwoman McCarthy. The gentleman yields back his time.
    I would like to recognize Mr. Sarbanes from Maryland for 5 
minutes.
    Mr. Sarbanes. Thank you, Madam Chair.
    I have to say, I think this is one of the most exciting 
committees to serve on, and this is one of the most exciting 
topics that we can examine, which is national service. There is 
a great quote from Martin Luther King, which I favor, where he 
said that anybody can be great because everybody can serve. And 
you are describing today the various opportunities that people 
have to do that.
    I have had the opportunity over many years to work with 
organizations that benefit from AmeriCorps volunteers, 
nonprofits. I worked with the Baltimore city school system for 
8 years, it has one of the largest Teach for America programs 
in the country, I think upwards of 150 teachers there now, and 
worked very closely with retirement communities and senior 
living organizations.
    And I was interested in your description of how the baby 
boomer wave that is hitting us often is viewed as a burden that 
is coming, and there are aspects of that, but it is also a 
tremendous resource if we figure out a way to capture it.
    Also, I think City Year is the group from Boston, is it 
not?
    Mr. Eisner. They actually have 16----
    Mr. Sarbanes. Sixteen now? Did they originate in Boston?
    Mr. Eisner. Their headquarters is in Boston.
    Mr. Sarbanes. Yes. Al Khazei and Michael Brown were law 
school classmates of mine. I believe they founded that program.
    I just had a couple of questions. The first is, a moment 
ago you said that we will never be able to meet fully the 
demand that is out there on the part of people who want to 
volunteer, which the goal is to build a scaffolding that allows 
that energy to be captured and distributed. Can you explain 
that a little bit more?
    Is it because you don't think the resources will ever be 
there at the level that they need to build a structure that can 
offer the opportunity to everybody or is it something else? Is 
it sort of like structural unemployment, there is always going 
to be a little piece that you can't capture?
    Mr. Eisner. I think there is sort of a few levels of that 
discussion. The first one has to do with resources, the second 
has to do with from a policy point of view, whether it is wise 
to take volunteering and say that in every instance 
volunteering should be federally supported. And then the third 
element is need.
    We have volunteering in America at a 30-year high. It seems 
to me that the job isn't now for government to figure out how 
to make all of those opportunities part of a federal program 
but the challenge is, how do we make sure that America benefits 
the most from that capacity to give, and how do we ensure that 
we give as many people the kinds of experiences that are 
required to within the community bolster that service.
    Just as a quick example, you are going to hear from Habitat 
a little bit later, last year they had about 500 members of 
AmeriCorps, and those 500 members of AmeriCorps recruited, 
trained and supervised 150,000 non-stipended community 
volunteers who were not part of a federal organization. And 
that is the kind of leverage that we would like to try to 
expand on.
    Mr. Sarbanes. That is a good answer.
    The second part of my question, which you have kind of 
begun to address, I guess, is, when you look at the various 
incentives that do require funding, which are the ones that you 
think are the most critical?
    And it would probably vary depending on the population that 
is seeking to serve, whether they are young, sort of, post-
college-age students versus seniors in terms of what their 
needs are and so forth.
    But is the resource most important for, sort of, the 
stipend that goes to the individual volunteers and most 
important for the training and oversight of, sort of, 
infrastructure that is brought to bear? What are the critical 
pieces that you can't do without?
    Mr. Eisner. I think that different kinds of programs have 
different needs, and I wish there was one answer to that.
    But it has to do, first of all, with the kind of program. 
We definitely need more resources across America in 
infrastructure for nonprofits to be able to manage volunteers. 
We really do need that. And AmeriCorps tried to help provide 
that, and so does VISTA.
    We also find that when we are trying to engage particularly 
kids from disadvantaged circumstances and change their lives 
through the intervention of service, that is when the education 
award and the stipend is at its most crucial, because these are 
youth that otherwise would simply not be able, under their own 
resources, under their own steam, to be able to participate in 
those programs.
    And then sometimes, for example, in our Learn and Serve 
programs, the real important stuff is getting the curriculum 
right, getting the distribution right and figuring out how to 
communicate policy priorities so that leaders of our K-12 
schools and leaders of colleges make it a priority that their 
kids become citizens as well as educated.
    Mr. Sarbanes. Thank you.
    Chairwoman McCarthy. The gentleman's time has expired.
    I recognize now Ms. Shea-Porter for 5 minutes.
    Ms. Shea-Porter. Thank you.
    I am looking at this list of the kinds of services that you 
provide in my district in New Hampshire, and I know what a 
difference it makes because I was a social worker and I saw 
working in senior programs a lot of people who came with RSVP 
and others, and it is very impressive and very, very necessary.
    But what I wanted to talk to you specifically about was 
Katrina and those from your program who were sent down after 
Katrina hit. I went there twice, and I have to tell you that I 
don't know what we would have done without AmeriCorps. I don't 
know what we would have done without the energy and the 
commitment of the youth down there. They were incredible. They 
were the ones who had the physical strength so often to lift 
all the very, very heavy food packages, they never complained, 
they suffered the hardship everybody else did.
    It was the most moving experience watching them, and I 
always had faith in our youth, but it really reignited that, 
realizing that for some of them I do believe it was the first 
time they actually felt like they were so critical to a mission 
in this country and so connected with our own people. It was a 
great experience.
    And the best part of it for me was sitting next to this 
young man all day long, chatting about this, chatting about 
that, and finally it got down to the stuff kids you don't like 
you to ask, ``Where did you go to high school?'' And he said he 
was from Massachusetts. And I said, ``Where did you go to high 
school?'' He said, ``I actually went in New Hampshire.'' And I 
said, ``Where?'' And sure enough, it was my daughter's school. 
So I took a message back to the principal that he turned out 
okay after all. And if he is listening, he was great. And I was 
very inspired by these kids.
    I have to tell you about the teamwork and the compassion 
that they showed one another, and you could see the leadership 
skills emerging in a place and a time that everybody was able 
to step up to the plate. They no longer had to wait for 
something to come down and be prompted; they were working on 
their own and had sense of purpose.
    And so what I wanted to ask you about, first of all, to 
thank you that they were there and to thank everybody who heads 
that program, and then I was surprised to find out that the 
funding was in jeopardy shortly thereafter, which astounded me 
thinking how fortunate we were that they were there.
    But what I wanted to ask you about was, I watched, and 
there were wonderful volunteers there, but there were obviously 
problems in Katrina. And I looked at some who were making quite 
a bit of money for being down there, and then I looked at these 
kids of AmeriCorps who were not and I wondered, did you ever 
figure out exactly what they were actually worth to the 
community and to the country.
    Because they don't work for a lot of money, as we know, and 
I have heard a lot of complaints about, ``Well, we pay health 
care, we pay this and we pay that,'' but the reality is, when I 
looked at the contractors--I sat on a plane next to a man when 
I was taking my second trip down there and he was telling me 
how the kitchen was open all night long, he could have a steak 
any time, he hadn't bought a bar of soap or anything in so 
long, and he was with a company that I won't name but they were 
doing fine.
    And then I went back and looked at the AmeriCorps crowd and 
they were sleeping on cots in the gym with everybody else and 
it was less than glamorous, I can assure you that. And we were 
eating the same food that we were serving people, but we were 
eating it hours later. So they sacrificed a lot.
    What was the economic value? I know what the emotional 
value was, and I know how much they helped the people of 
Louisiana where I was, but do you have any sense of what they 
are actually worth when we put them in a position doing the 
same job as if they had been provided for by a corporation?
    Mr. Eisner. No, we don't. That is a terrific question and 
something that we should look into.
    I can tell you that part of the reason it is difficult is 
because we tried very hard not to have our members and our 
participants simply saving costs, either from private or from 
other government agencies, local, state or federal. We tried to 
have our participants doing things that no one else would have 
paid to do and to have our participants helping people that 
otherwise would not have gotten that support.
    But I think the question is terrific.
    Ms. Shea-Porter. Yes. I think it does matter. I mean, it 
gives a claim to why this is so important for us to have. And 
when you stand there in a cold shower for the 15th day and you 
wait to stand in for the cold shower for the 15th day, there 
are lots of jobs like that that you don't have people who want 
to come and do that. So they did fill a need.
    So I just wanted to thank them if they hear this. I don't 
know if anybody is here. Thank you for your service because it 
was remarkable. And I know that long term the kinds of 
management skills and the kinds of compassion that you 
discovered in yourselves is a gift to America.
    I yield back my time.
    Chairwoman McCarthy. I thank the gentlelady.
    I would like to recognize Ranking Member McKeon for being 
here for either questioning or a statement. Thank you.
    I am sorry, I am messing your name up. Mr. Grijalva for 5 
minutes.
    Mr. Grijalva. Madam Chair, I just want to thank you and 
congratulate you on this hearing and your chairmanship. It is 
going to be a pleasure and an honor to work with you on this 
committee.
    One question for submission of data, first, Mr. Eisner, and 
then a couple of quick questions.
    To satisfy maybe my personal curiosity or the curiosity of 
other members of the committee, down the road if you could 
provide us some statistical information relative to the 
diversity of the volunteerism programs that are under your 
jurisdiction, whether it be AmeriCorps, Senior, RSVP, et 
cetera.
    Not to belittle or question the effort of the volunteerism 
of the people that are there but just to kind of give us a mile 
post of what we need to be looking for in the future in terms 
of expanding the breadth of who could--not who could but who 
should be volunteering in this nation. I would appreciate that.
    Mr. Eisner. Thank you. We have that information, we collect 
it, and we are actually working against it. We would be 
delighted to share it.
    Mr. Grijalva. Thank you so much.
    I am going to go to one quick question. I have questions 
about the programmatic cuts in the budget. And thank you very 
much, your testimony provided us with a good picture of the 
state of volunteerism in America today, and the statistics you 
cite are absolutely positive. And thank you for that and your 
effort, and the corporation has done that.
    But the president's effort to support a call to community 
service seems to fall a little short in terms of the budget. 
And there are cuts in Learn and Serve, Foster Parents, 
AmeriCorps, the NCCC budget is cut in half, losing over $15 
million. And at some point, as this committee looks at either 
restoration of funding to support those very critical areas for 
civic engagement in America, I probably will want to some more 
reaction to that.
    And I won't belabor the point right now, it is just that I 
think those cuts, if we are asking this nation, whether baby 
boomers like me or others, what is going to be the support 
structure under our call for volunteerism, and I think these 
problematic cuts affect that structure underneath the footing 
for volunteerism in America.
    But let me ask you, the agency's March 2006 report on 
service learning talked about high school students are much 
more likely to participate in those efforts than middle school 
students. In fact, 50 percent of the participants are more 
likely coming from private schools and not public schools. So I 
have a personal issue--not issue but a personal interest in the 
fact that I think that the personal development aspect of 
middle schools is critical, critical to success later on.
    And I was just curious of what you think we can do with the 
service grants in our nation's middle schools to promote middle 
school participation and engaging more public school children 
in school-based service. Particularly when we are talking about 
No Child Left Behind and how that integrates with the civic 
volunteer involvement that you are promoting.
    With that, Madam Chair, that is my question. Thank you.
    Mr. Eisner. It is a critical question around what we need 
to do to get more middle school students engaged in service 
learning. I was just at a 2-day conference that brought all of 
our youth providers together under the Collaboration for Youth 
and the Alliance for Youth. And they focused on this particular 
issue as a very important one.
    We are trying to do it through dissemination of best 
practices, through better training of teachers, through trying 
to get our VISTAs, AmeriCorps members, Foster Grandparents more 
effective in those areas.
    We do think that there are some connections that can be 
made against No Child Left Behind, and there are things that 
can happen at the state level as well. We are seeing more and 
more governors become interested in service learning as a 
central element to their education policy. So we think there 
are a lot of ways to go.
    And I appreciate your raising the budget issues and look 
forward to sending some information to you. I just want to note 
that we do believe that we will be able to hit the goals that 
we have set with the budget that we have requested.
    Mr. Grijalva. Thank you.
    I yield back, Madam Chair.
    Chairwoman McCarthy. I thank you. I thank the gentleman.
    I want to thank Mr. Eisner for your testimony, and as we go 
forward on working on a markup down the road, I hope that we 
can use your input.
    With that, I would like to thank you again in your 
appearance today.
    We can now bring forward the second panel for testimony.
    Mr. Eisner. Thank you.
    Chairwoman McCarthy. Mr. Platts?
    Mr. Platts. Thank you, Madam Chair.
    While the second group of witnesses is coming up, if I 
could ask unanimous consent, Chris Shays, who is co-founder and 
co-chair of the National Service Caucus, has submitted a 
statement, and I would like to offer that for the record.
    Chairwoman McCarthy. Any objections? Accepted.
    [The statement of Mr. Shays follows:]

   Prepared Statement of Hon. Christopher Shays, a Representative in 
   Congress From the State of Connecticut; Co-Founder and Co-Chair, 
                        National Service Caucus

    I applaud Chairwoman McCarthy and Ranking Member Platts for holding 
this hearing and for their leadership on and commitment to National 
Service. I appreciate the opportunity to offer my observations on 
National Service.
Low-Cost, High-Impact Investment
    I believe National Service is one of the wisest and least costly 
investments our government can make.
    For example, in Fiscal Year 2006, two million people serving 
through Corporation for National and Community Service (CNCS) programs 
provided 216 million hours of service, and recruited or managed another 
1.8 million volunteers. The market value of the CNCS volunteer programs 
in 2006 alone is estimated to be between $1.8 billion ad $3.9 billion.
    In response to the destruction of the Gulf Coast by Hurricane 
Katrina, more than 35,000 AmeriCorps, VISTA, NCCC, Senior Corps and 
Learn and Serve America program participants have contributed more than 
1.7 million hours to the hurricane relief and recovery efforts, 
recruiting and supporting another 120,000 volunteers who have cleared 
tons of debris, served hundreds of thousands of meals, put tarps on 
thousands of roofs, and sanitized thousands of homes.
    In the Fourth Congressional District of Connecticut alone this 
year, the Corporation for National and Community Service is supporting 
over 1,000 Senior Corps and AmeriCorps participants.
Sense of Community
    Through service, Americans of all ages gain a sense of commitment 
to their community and their country which will prove valuable for 
their entire lives. According to the CNCS, 72 percent of AmeriCorps 
members continue to volunteer in their communities after their term of 
service ends and 87 percent of former AmeriCorps members accept public 
service employment.
    National service benefits both the recipient and the volunteer. 
Volunteers not only address an immediate need, they lead and teach 
through example, and through that example they learn the value of 
serving and helping others.
    I still remember how I felt as a 14 year-old watching the 1960 
Presidential election between Vice President Richard Nixon and Senator 
John Kennedy. I felt energized listening to Senator Kennedy when he 
spoke of the Peace Corps and making the world a better and safer place. 
I wanted to be part of his vision. Years later, that dream was 
fulfilled when my wife Betsi and I served two years in the Peace Corps.
    The same powerful emotion, the same sense of energy, eagerness and 
anticipation we felt in the sixties, is alive today.
    A recent study by the Higher Education Research Institute found 
that more than two-third of the 2005 college freshman class expressed a 
desire to serve others--the highest rate in a generation.
    President Bush spoke to our country's finest traditions of civic 
duty when he called on all Americans to volunteer 4,000 hours in their 
communities during their lifetimes. In a little more than a month after 
the President made his call for Americans to serve, applications to 
AmeriCorps programs at the Corporation increased by more than 50 
percent and interest in Senior Corps programs at the Corporation rose 
dramatically. The best antidote to terror and hate in society are acts 
of kindness and service.
                                 ______
                                 
    Mr. Platts. Okay. Thank you.
    Chairwoman McCarthy. At this time, I will be yielding to my 
colleague from Arizona, Mr. Grijalva, to introduce Mr. 
Gomperts.
    Mr. Grijalva. Thank you, Madam Chair.
    And I am pleased to welcome to the committee Mr. John 
Gomperts, president of Civic Ventures and CEO of Experience 
Corps, an AmeriCorps competitive grant recipient whose members 
tutor and mentor elementary school students that are struggling 
to learn and read and succeed.
    Throughout his career, Mr. Gomperts has been deeply 
involved in promoting civic engagement, serving in leadership 
positions both in government and nonprofit sector for over 20 
years.
    As CEO of Experience Corps since 2003, he has led a major 
expansion of the program with much success.
    Last December, having minimal or rudimentary knowledge of 
what Experience Corps was, I had the chance to visit Experience 
Corps' site in my district. I was very impressed by the work I 
saw Experience Corps doing at Walter Douglas School in Tucson 
where the program is sponsored by the Volunteer Center of 
Southern Arizona.
    Experience Corps' tutors, aged 60 to 90, were clearly 
valued. They were part of the staff, they worked with 2nd and 
3rd graders, volunteering 4 to 15 hours weekly to help these 
children be excited about reading, learning and expanding, in 
many cases, their limited horizons.
    In the next few years, people my age--and it is kind of an 
interesting notation, baby boomers, I am still looking for what 
the definition is--will move into their second careers--
hopefully voluntarily for me, but let's see how that works--
with a goal of giving back to our communities everything our 
communities have given us.
    I know there is a huge potential in America, certainly in 
my home state, for this population to make a difference. And I 
look forward to hearing the remarks of Mr. Gomperts.
    Thank you.
    Chairwoman McCarthy. Thank you, Mr. Grijalva.
    Now, we would like to introduce David Edelman, who is from 
Merrick, my district, in New York. David is currently a student 
at Hofstra University, studying to become a teacher. David is a 
former AmeriCorps National Civilian Community Corps member who 
provided a variety of services, including building houses, 
organizing summer programs for people with special needs and 
teaching summer youth programs.
    I am looking forward to hearing your testimony.
    Next, we will hear from Tommy Daigle. Mr. Daigle is a 
former AmeriCorps member who helped with the aftermath of 
Katrina and participated in the building of over 80 houses in 
North Carolina, Florida, Mississippi and Texas. He is currently 
a bike and build trip leader, and his responsibility is 
planning logistics and support for 30 college students on a 
3,700-mile ride from Providence, Rhode Island to Seattle, 
Washington.
    Mr. Daigle currently leads riders on Habitat for Humanity, 
builds sites and conducts interviews with local press. He is 
also a NOLA service week coordinator and is planning for a week 
of service building with New Orleans Habitat for Humanity.
    Gentlemen, thank you for joining us.
    Now, I would like to yield to the Ranking Member Platts to 
introduce Mr. Moore.
    Mr. Platts. Thank you, Madam Chair.
    I am very honored and proud to introduce George Moore, 
executive director of the Community Progress Council in York, 
in my hometown of York. George is one of our most distinguished 
citizens, leading this very important agency. In his work as 
executive director, he oversees a countywide, multipurpose 
community action agency with a budget of over $5 million. It 
encompasses over nine different community programs with over 
200 staff members.
    One of the programs he oversees is York County Foster 
Grandparent Program, made up of more than 60 foster 
grandparents. This is the largest community service program 
administered through the Corporation for National Community 
Service in my congressional district, and foster grandparents 
tutor and mentor students as well as assist organizations that 
serve abandoned or abused babies, and we are going to hear more 
about that program from George.
    Before his current position at Community Progress Council, 
he served as child development director at Head Start of York 
County.
    So we are grateful to have you here as well and to join our 
other witnesses.
    Chairwoman McCarthy. Thank you, Mr. Platts.
    I am just going to go over the lighting system one more 
time. Each of you will have 5 minutes. When the green light is 
on, you start; when you see it going to yellow, wind up; when 
it is red, finish up. Thank you very much.
    Our first testimony will come from Mr. Gomperts.

       STATEMENT OF JOHN GOMPERTS, CEO, EXPERIENCE CORPS

    Mr. Gomperts. Thank you, Representative Grijalva, for that 
introduction. And I have to say I am so delighted that you were 
able to come and visit our program and see it in action.
    Madam Chair, members of the committee, as you heard, I am 
John Gomperts, president of Civic Ventures and the CEO of 
Experience Corps, and I really appreciate your inviting me here 
to join you today.
    Washington Post reporter Abigail Trafford recently called 
the emergence of an older, more vigorous population the most 
significant social story of our time.
    Now, that is good news for all of us individually, we can 
expect to live older and healthier, but in 5 years when 20 
percent of the U.S. population will be over 60, will it be good 
news for America?
    Many pundits and analysts predict fiscal and social 
disorder, but I believe we can transform this potential crisis 
into an historic opportunity to solve problems and strengthen 
communities.
    My optimism is based, in part, in our success with 
Experience Corps, a national service program that engages 
Americans over 55 as tutors and mentors in public schools in 21 
communities around the country.
    In Experience Corps, we have learned that all kinds of 
people over 55 can be mobilized to do the work that we need 
done in our communities. We have Experience Corps members who 
have argued cases before the Supreme Court and members who 
never finished high school. We have retired cops and file 
clerks. We have rich and poor and everything in between, and we 
have people of all races.
    But what Experience Corps members share is a desire for 
challenging assignments that produce real results on the 
biggest problems in our community--and it works. Experience 
Corps members are raising reading scores and improving academic 
performance in some of the neediest communities in the country.
    So if you take just one though away from our conversation 
today, I hope it is this: that the people who have finished 
their mid-life careers can be a workforce for good in the 21st 
century.
    Now, I am not naive. Turning the aging of America into a 
positive story is more than just spin. It is going to take 
creativity and experimentation and bold action, risk taking and 
looking to the future more than the past.
    We have seen some positive developments recently. This 
committee and Congress reauthorized the Older Americans Act 
last fall and included civic engagement language for the first 
time. We look forward to working with you and with the 
Administration on Aging and turning that language into action 
and innovation.
    David Eisner's agency, with the president's help, proposed 
a new Boomer Corps, which we regard as a very promising 
development, and we hope that that can get adopted and funded.
    And in states around the country, governors and state 
legislators are starting to look at ways to continue to engage 
older adults in service and work. Just today, in New York, this 
morning, a package of bills was introduced in the legislature 
that we think is very, very promising.
    These are good developments, but with a phenomenon the size 
and the magnitude of the aging of America and problems so 
significant and persistent dogging our communities, there is no 
advantage to thinking small today.
    To meet the challenge, let me offer the beginnings of four 
ideas to engage more boomers in high-intensity, high-impact 
service.
    First, we should create an Experience Fellows Program, 
modeled on the White House Fellows Program and other successful 
fellowship programs. The fellows would be placed in nonprofits 
and the fellowship would provide a pathway for people to bridge 
from their midlife careers into new opportunities to work for 
the greater good.
    Second, let's consider a reverse G.I. Bill to help midlife 
individuals get the education and training they need to take on 
new work in high-needs fields. People would repay the cost of 
the education and training in years of service after they got 
the training.
    Third, some of you may be familiar with the Troops to 
Teachers Program. This is a hugely successful program. Let's 
figure out how to expand it and extend it beyond military 
personnel and beyond just teaching.
    Fourth, going to something that was asked by a couple of 
the members, we need a new innovation fund to support 
nonprofits, like Experience Corps and others, that want to test 
new ways to engage boomers in service and in work.
    So let me be clear in wrapping up, we don't believe that 
engaging people is an end in itself. This committee and the 
Congress have a big, big agenda shared by the American people: 
Who is going to do all this work? Those in the second half of 
their adult lives are up to the task. They are ready to take 
the responsibility to tackle big problems. National service is 
a way to help them get there.
    Let me just close by quoting management guru Peter Drucker, 
who famously said that, ``The best way to predict the future is 
to create it.''
    So I thank you for the opportunity to be here today, and I 
look forward to working with the committee and all of you 
individually to create a story about the aging of America that 
is good for individuals, communities and the country.
    Thank you.
    [The statement of Mr. Gomperts follows:]

Prepared Statement of John S. Gomperts, President, Civic Ventures; CEO, 
                            Experience Corps

    Mr. Chairman, Members of the Committee, thank you for the 
opportunity to testify. I am here today as the President of Civic 
Ventures, a think tank and program incubator dedicated to helping 
America gain the greatest return on the experience of our citizens. I 
am also CEO of Experience Corps, one of Civic Ventures' signature 
programs, which engages Americans over 55 in intense tutoring and 
mentoring in public schools in 21 communities around the country.
    For 10 years now, we've seen the impact of thousands of Experience 
Corps members on children struggling to learn to read. Rigorous 
independent research has proven that Experience Corps boosts student 
academic performance and reduces negative behavior in school, helps 
schools and youth-serving organizations become more successful, and 
enhances the well-being of Experience Corps members. Notably, 70 
percent of Experience Corps members come from the immediate community 
of the schools in which they serve, so beyond bolstering the students 
and the schools, these members are building stronger communities in 
some of our most needy neighborhoods.
    This hearing takes place at an opportune moment, as 78 million baby 
boomers, the oldest of whom are just now crossing into their 60s, begin 
to think about what's next. As children leave home and midlife careers 
run their course, most in their 50s and 60s today are not, contrary to 
popular images, thinking about full-time leisure. There is abundant 
evidence that boomers today are thinking about meaning, purpose, 
community service, and jobs that benefit the greater good. They are 
thinking about the world their children will inherit and how they can 
make it a better place. It is an opportune moment--and we have an 
extraordinary opportunity. With federal support, we can transform the 
aging of the baby boom generation from a crisis into an opportunity. 
Working together, we can engage millions of talented, experienced 
Americans as a new and powerful workforce for social good, mobilized to 
solve problems and strengthen communities.
Backdrop
    The aging of America is likely to be the biggest demographic story 
of our times. Though the statistics about the changes in the make-up of 
the American population have become familiar, they are nonetheless 
breathtaking. The largest generation ever to pass through its 40s and 
50s is now moving into its 60s. In five years, 20 percent of the 
population will be over 60. This will bring profound changes to schools 
and universities, to health care and housing, to transportation and the 
workplace, to virtually every institution in our lives.
    We are already having a debate about some of the consequences of an 
aging America. But so far that debate has been almost exclusively 
focused on the costs an aging society will add to programs such as 
Social Security, Medicare, and Medicaid. The importance of these issues 
is undeniable, both for the financial and health security of 
individuals and for the fiscal solvency of the country. But the changes 
that the demographic wave will bring to the country go much deeper than 
these fiscal realities.
    A debate that focuses only on the burdens of aging will bring costs 
of its own--negativity, brewing generational resentments, an unhealthy 
sense of separation and isolation. We need to balance the scales by 
also exploring and debating proposals to capture the energy, idealism, 
and talent of millions of Americans who want to make a major 
contribution to the public good.
    But this goes much further and deeper than balancing the political 
scales; it goes to the question of how we will meet our nation's 
biggest challenges. We all want to see more children succeed, which 
means better education, better afterschool programs, more mentors. We 
all want to see a healthier society, which means more health 
professionals, particularly nurses and aides. We all rely on the 
nonprofit sector to meet community needs, but the nonprofit sector is 
facing an enormous workforce shortage over the next decade. Who will 
step in and do the work?
    The greatest source of new workers in these vital areas may, in 
fact, be those who have finished their midlife careers but who still 
want to work and need to work, those who are searching for both 
individual and social renewal. That's why in a nation filled with such 
profound needs in education, health care, and the social sector, and at 
a time when the nation yearns for a greater feeling of connectedness 
and community, to look away from the potential of engaging older adults 
would be as irresponsible as ignoring the costs of an aging society.
    So how do we move millions of boomers into the social sector? In 
the past, those who had finished working became volunteers. We have a 
proud history and tradition of volunteer service by older Americans, 
and we need to continue to engage people in the second half of life as 
volunteers. But as we look ahead, we can expect that many more people 
are going to stay in the workforce, or return to the workforce. Survey 
after survey shows that 75% percent of people expect to ``work in 
retirement.''
    What jobs will they do? In 2005, the MetLife Foundation/Civic 
Ventures New Face of Work Survey found that aging boomers have a strong 
desire to launch a new chapter in their working lives that involves 
significant social contribution. Individuals over 50, especially adults 
between 50 and 55, showed a surprisingly high level of interest in 
making shifts from their intense midlife careers to new pursuits that 
improve life in their communities.
    This desire for meaning in the post-midlife years has the potential 
to meet widening human resource shortages in sectors like education, 
health care, and social services. However, only 12% of these 50+ adults 
think it will be very easy to find jobs where they can make a 
difference. Therein lies the opportunity--and the challenge. Volunteer 
service can open the door to meaning and contribution. It can provide 
training. And it can be a pathway to paid employment in service of the 
greater good.
Principles for new policies
    A one-size-fits-all federal program for older Americans is unlikely 
to be affordable or to meet the diverse needs of members of the baby 
boom generation. But we do need new policies to spark innovations and 
capture the opportunity of an aging society. So I'd like to suggest 
several key principles to guide the development of new policies.
    Support innovation and experimentation by individuals and 
organizations. We simply do not know yet what type of programs will 
attract members of the baby boom generation into significant service 
and volunteering. We also do not know what type of approach will work 
best for the organizations and institutions that engage volunteers. 
Under the circumstances, a period of intense innovation and 
experimentation is most appropriate. Even with plenty of innovation and 
experimentation, it is not realistic to believe that any single program 
will appeal to everyone or to every organization. If nothing else, the 
boomer generation is known for wanting choice, so policies must avoid 
the search for the silver bullet program to engage everyone and, 
instead, work to develop a menu of appealing opportunities for 
individuals and organizations to connect.
    Build on what we've learned. While seeking innovation, should not 
not leave behind what we have learned through the successes of existing 
programs. For instance, through Experience Corps, we have learned much 
about the importance of producing measurable outcomes for students and 
Experience Corps members, we have seen the value of a team-based 
approach, we know that continuous learning and leadership opportunities 
are vital. We know that when you have all of these components, you 
produce real results in the community and real satisfaction for 
participants.
    Make it possible for new organizations to come into existence and 
for existing organizations to innovate. One of the successes of 
AmeriCorps is that it helped brilliant new organizations like CityYear, 
Public Allies, Citizen Schools, Teach for America and others to come 
into existence and flourish. It also brought new energy and resources 
to more established organizations like the Boys and Girls Clubs, Big 
Brothers Big Sisters, and the American Red Cross. An effort to engage 
people who finished their midlife careers in service and volunteering 
should have the same type of impact--to fire the imagination of social 
entrepreneurs who will start new programs and organizations, and to 
reinvigorate existing organizations that will be looking for new 
talent.
    Attract the broadest possible range of participants. Like 
AmeriCorps, new civic engagement endeavors should be open to all 
participants--no limitations based on income, education, health status, 
or ability. The focus should be meeting community needs and solving 
community problems--not on keeping older adults engaged.
    Look for pathways to work, not just service opportunities. One of 
the great successes of AmeriCorps is that it has become a training 
ground for new staff and leaders in non-profit organizations. The same 
is true for Experience Corps members. It's not unusual for people to 
start as Experience Corps members--tutoring and mentoring young 
people--and then to move into staff jobs running the program. Service 
opportunities for people who have finished their midlife careers should 
include the possibility of opening doors to paying jobs.
    Draw champions and support from leaders in both parties. In a time 
of division, people have a hunger for ideas that bring people together 
to solve problems. Civic engagement has that potential. Each recent 
President (Bush, Clinton, and Bush) has advanced a major civic 
engagement agenda (Points of Light, AmeriCorps, and USA Freedom Corps). 
As significant, each has actively supported the civic engagement 
proposals of the others. A major proposal focused on older adult civic 
engagement should seek to extend that bipartisan enthusiasm.
    Two recent developments are notable and heartening.
    Last fall a bipartisan group of House and Senate members came 
together to reauthorize the Older Americans Act. For the first time, 
that legislation contained significant civic engagement language. We 
look forward to working with the Administration on Aging and this 
Committee to see that language lead to new action and innovation.
    And the budget the President sent to Congress earlier this month 
contained a proposal for a Boomer Corps, which would develop a new menu 
of flexible opportunities for individuals to choose one time, periodic, 
or intensive volunteer activities, an idea and innovation that holds 
real promise.
Four ideas
    With needs of society and the principles outlined above in mind, 
here are the broad outlines of four policy proposals to significantly 
advance the civic engagement options for people who have finished their 
midlife work and who want a chance to make a major commitment and 
contribution to the public good.
    Experience Fellows. People who are seeking to make a major 
commitment to service and good work often suffer from a lack of access 
to and knowledge of opportunities. People are not certain what they 
want, and organizations are not certain that they can make a long-term 
commitment. For many young people, we have eased this transition with 
internships and fellowships that provide an entry point and structure 
for gaining experience, while also giving organizations an inexpensive 
labor pool and a concrete way to engage young people.
    An Experience Fellows program would create a similar pathway and 
structure for people who have completed their midlife careers but seek 
a way to enter into a period of work for the public good. The program 
would be modeled on the best aspects of the White House Fellows 
Program, VISTA, and the Coro Fellows. People would apply for and be 
accepted as Experience Fellows. Each Fellow selected would receive a 
voucher that enables him or her to go to any nonprofit organization or 
public agency and seek an assignment. The voucher would cover a stipend 
for the Experience Fellow and also provide funds to support training 
for the organization where the Fellow works. Organizations would 
compete to attract Experienced Fellows.
    The Experience Fellows program would start as a federal pilot 
program, moving up to as many as 1,000 Fellows per year. However, the 
fellowship model could be replicated on a state and local level, and 
could even be replicated by private sector employers who want to help 
employees nearing retirement transition to nonprofit or public sector 
jobs.
    Reverse GI Bill. The GI Bill established the basic concept of 
rewarding service with educational opportunity. It was one of the great 
successes of the 20th century. For people who have finished their 
midlife careers and who want to move into work or service in the 
nonprofit sector, a reverse GI Bill can provide similar benefits.
    Many people who want to move into high-need professions like 
education or health care will need a period of training or education. 
In some instances, people might need to gain a credential or 
certificate. The student loan approach may not be practical for people 
in their middle years. The Reverse GI Bill, modeled on the ROTC and 
Public Health Service Corps approach, would support midlife individuals 
in getting education and training; the people would then repay the 
educational support by a period of service in a high-need profession. 
One year of education or training would be repaid through two or three 
years of service or work.
    Expand Troops to Teachers. The federal government already has a 
highly successful transition program called Troops to Teachers. In the 
past dozen years, some 9,500 veterans have received support to gain 
teaching credentials and then been recruited into teaching and 
administration jobs in high-need areas. The program has been a great 
success, winning plaudits from principals, educators, and independent 
evaluators.
    Recognizing the success of Troops to Teachers, Congress directed a 
study of a proposal to create a Troops to Nurse Teachers program that 
would recruit Army and Navy medical corpsmen and women to become nurse 
educators, a profession that is suffering from a severe workforce 
shortage.
    Further extensions of the Troops to Teachers idea also hold 
promise. Why not extend the idea beyond military personnel? Other 
federal employees, for example, are eligible for an excellent 
retirement program after 30 years of federal service, allowing many to 
retire from the federal government in their mid-50s with many 
productive years left. They could benefit from a program that allowed 
them to transition to education or other high need fields.
    Organizational Innovation Fund. In the fall of 2005 the Corporation 
for National & Community Service put out a call for proposals for 
existing organizations to make special efforts to engage baby boomers. 
The Corporation required a stiff (2 to 1) private matching requirement 
to apply for these funds. After Hurricane Katrina, the Corporation 
narrowed the call for proposals to efforts responding to the disaster 
in the Gulf region. Even with these limitations and the challenging 
match requirement, the Corporation received a large number of 
proposals.
    The Corporation's experience with this one-time competition 
demonstrates that a comparatively small investment of federal dollars 
can stimulate nonprofit organizations to adopt new practices to engage 
older Americans in service and volunteering. Building on the 
Corporation's experience, an Organizational Innovation Fund would 
provide federal grants to nonprofit organizations that adopt new and 
creative ways to engage older Americans in service and volunteer work. 
The focus of the grants would be to create new opportunities for high-
commitment, high-impact service.
    Through the operation of a matching grant requirement, these funds 
would bring additional private investment in older adult civic 
engagement. And by lodging the response in nonprofit organizations 
(either existing organizations or potentially new organizations), the 
fund provides the greatest chance for creative, risk-taking responses 
from the non-governmental sector.
    In closing, I'd hope we can work together to act on the tremendous 
potential of people who have finished their midlife careers to be the 
workforce for good in the 21st century. With federal support and the 
mobilization of millions of boomers, we can improve education, 
healthcare, and the social sector. Service and volunteering cannot be 
the whole answer, but well-designed programs and investments can lay a 
foundation for the big, bold changes that are needed to meet new 
societal needs and the needs and desires of members of the baby boom 
generation. Now is the time to start.
                                 ______
                                 
    Chairwoman McCarthy. I thank you for your testimony.
    Mr. Edelman?

           STATEMENT OF DAVID EDELMAN, NCCC VOLUNTEER

    Mr. Edelman. I want to thank you for inviting me to speak 
today and granting me the opportunity to tell you about my 
experience in AmeriCorps NCCC.
    When I first entered the program in January 2005, one of 
our first tasks was to write a letter to ourselves addressing 
our aspirations for the year. Like most people, my letter 
focused largely on service work I wanted to do during the 
course of the program. I mentioned I wanted to provide relief 
during natural disaster, build a house for a family in need and 
teach children.
    Looking back at my experience in AmeriCorps, it is accurate 
to say that although I had the opportunity to engage in these 
activities, this is not the main reason for my feeling the 
program was a success. Just as important as the impact of my 
service work was the tremendous effect AmeriCorps NCCC had upon 
me.
    The National Civilian Community Corps experience is unique 
to the AmeriCorps family because it exposes you to a wide range 
of national and community service options.
    NCCC was a life-changing event for me. Since completing the 
program, I have enrolled in a master's program to become a high 
school social studies teacher. I have made good use of my 
AmeriCorps educational award, which has now been converted into 
college tuition.
    I currently student-teach a 12th grade economics class in a 
public school on Long Island. I strive to create coursework 
that promotes civic responsibility, and I believe my personal 
experiences will inspire many of my students to engage in 
community service and even join AmeriCorps themselves.
    Growing up, I was not regularly exposed to the challenges 
most Americans face on a daily basis. I participated in various 
community service organizations in high school and college but 
often became disillusioned with the work since it centered just 
on fundraising. In AmeriCorps, I got to do hands-on work that 
directly helps people.
    It wasn't until AmeriCorps that I became aware of the term, 
``service learning,'' the idea of learning by doing. During 
AmeriCorps, I had the incredible opportunity to work with an 
organization called Common Bond, Minnesota's largest provider 
of affordable housing. My team was chosen to run educational 
youth programs for teenagers, and many of the residents were 
recent immigrants from east Africa who sought political asylum 
in the United States.
    This experience not only provided me with the knowledge 
that comes with teaching a diverse group of children, it also 
showed me the need for safe, affordable housing.
    In addition to learning about the need for housing, I had 
the opportunity to physically build eight houses with Habitat 
for Humanity in Liberty City, Miami. I will never forget one 
recipient of the Habitat house telling me how he developed a 
renewed faith in the government and the youth of America. As 
you said, it is easy to go about your life thinking no one 
cares, but then a group of motivated individuals come and you 
find your spirits raised.
    In a time when disaster recovery and homeland security top 
our nation's priorities, a strong and well-trained AmeriCorps 
NCCC is vital. From day one, we trained in disaster relief 
services and were ready to deploy at a moment's notice. After 
Hurricanes Rita and Katrina, every team from our campus, except 
for my team and one other, deployed to the Gulf coast. I was 
very disappointed to be left behind, but I knew I had another 
important service project to complete.
    In the Gulf, my fellow corps members were working 
tirelessly to field calls, remove debris, staff supply 
warehouses and coordinate relief efforts.
    National and community service is one of the most important 
missions a government can pursue, especially considering we 
live in a country that funds so many programs to help the rest 
of the world. The fact that an organization like AmeriCorps 
even exists makes me proud of my country.
    I think I speak for all my fellow teammates when I say, 
``AmeriCorps NCCC leads to a lifetime of service.'' Many of my 
friends are now America's fire fighters, Red Cross staff, 
social workers, counselors, volunteers and teachers like me 
because of their experience in AmeriCorps. AmeriCorps NCCC 
creates a new breed of young and passionate leaders that are in 
tune with the needs of the country and intensely dedicated to 
national and community service.
    Again, thank you very much for your invitation to speak. If 
you have any questions, I would be more than happy to answer 
them.
    [The statement of Mr. Edelman follows:]

 Prepared Statement of David R. Edelman, Former AmeriCorps*NCCC Member

    I want to thank you for inviting me to speak today and granting me 
the opportunity to tell you about my experience in AmeriCorps*NCCC. 
When I first entered the AmeriCorps*NCCC program in January 2005, one 
of our first tasks was to write a letter to ourselves addressing our 
aspirations for the year. Like most people on my team, my letter 
focused largely on the service work I hoped to partake in during the 
course of the program. I mentioned that I hoped to have the opportunity 
to provide relief during a natural disaster, build a house for a family 
in need, work with children in an educational setting and participate 
in an effort to improve the environment.
    Looking back at my experience in AmeriCorps, it is accurate to say 
that although I had the opportunity to engage in these activities, this 
is not the main reason for my feeling that the program was a success. 
Just as important as the impact of my service work was the tremendous 
effect AmeriCorps*NCCC had upon me. It helped me to recognize the 
incredible power inherent in a group of determined individuals and my 
service ultimately gave me the confidence to pursue my passions in 
life.
    The National Civilian Community Corps experience is unique to the 
AmeriCorps family because it is a residential program for 18-24 year 
olds, which exposes you to a diverse group of people and a whole 
spectrum of national and community service options. Before entering the 
program, I only had vague ideas where my talents and interests lay. 
NCCC helped me realize my passion for education. Since completing the 
program, I have enrolled in a master's program to become a high school 
social studies teacher. I have made good use of my AmeriCorps 
educational award, which has now been converted into college tuition. I 
currently student teach in a twelfth grade economics class in a public 
school on Long Island. I strive to create course work that promotes 
civic responsibility and I believe my personal experiences will inspire 
many of my students to engage in community service and even join 
AmeriCorps themselves.
    Although my experience in the NCCC has been life changing, the 
decision to accept an invitation to the program was not easy. When I 
applied, I was a college graduate for a little over a year and was 
working at a marketing research company in New York City. At the time, 
the corporate world seemed like the logical next step after college. I 
was keenly aware that entering AmeriCorps*NCCC would require me to step 
outside my comfort zone and relinquish a large amount of control over 
my life. I ultimately decided to leave my job and join the program out 
of the desire to discover a path that was more in line with my ideals 
and aspirations. I also believed that the program would expose me to 
many of the unpleasant but important hardships of life.
    Growing up in a fairly affluent middle class community on Long 
Island, NY, I was not regularly exposed to the challenges many 
Americans face on a daily basis. I participated in various community 
service organizations in high school and college, but often became 
disillusioned with community service because much of the work centered 
on fundraising activities and not directly serving those in need. I 
desired service work that was focused on a specific community and 
centered on making individuals more aware of societal needs.
    I didn't know that what I was looking for in a service experience 
had a name until I arrived in the Denver campus for my training. There, 
I was made aware of service learning. Service learning is a foreign 
concept to most people. As an educator, I am well aware that the two 
goals of community service and education are often approached 
independently. But in AmeriCorps*NCCC this is quite the opposite. Each 
service project offers a unique, multifaceted learning experience.
    During AmeriCorps, I had the incredible opportunity to work with an 
organization called CommonBond, Minnesota's largest provider of 
affordable housing. My team was chosen to run educational youth 
programs for the children of residents that lived in the various 
CommonBond buildings. The experience not only provided me with all the 
lessons and knowledge that come with teaching a diverse group of 
children, but it also awakened me to the commitment government has to 
its citizens to ensure safe, affordable housing options are available 
to all members of society. I saw first hand that when a family has 
proper housing, they can begin to care for their other needs, including 
securing a job, going to school and becoming an active member in the 
community. A large proportion of the residents that lived at my housing 
site were recent immigrants from East Africa who were seeking political 
asylum. I heard first hand the horrors many of the families experienced 
in their homelands and the struggles they uncounted in making the 
transition to life here in America.
    I am now attempting to instill this same concept of service 
learning into my classroom. Just last week, when I introduced the 
concept of scarcity as the basis of all economic decisions, I provided 
my class with a global IQ test which required students to think about 
poverty, disease and other unmet human needs from a worldwide 
perspective. As I continue to grow as an educator, I aspire to 
introduce the concept of civics and service learning into Social 
Studies curriculum. Instead of merely discussing issues like poverty 
and homelessness with my class, I hope to have my students' experience 
these realities first hand by taking their learning into the community 
and serving as volunteers in soup kitchens and public housing sites.
    One of the strange things about being in AmeriCorps*NCCC, is it 
creates a sense of national community and identity that you cannot 
fully appreciate until you graduate from the program. When you are away 
from your campus on a project, it is often easy to become consumed with 
your specific mission and forget that you are part of this large 
movement dedicated to national service. Although I experienced this 
feeling of detachment, it often coincided with a memorable event. That 
memory instantly jogged my senses and reminded me that that I was part 
of something bigger than myself, my team or even a regional campus.
    This first happened to me during the middle of my first round 
project with Habitat for Humanity in Miami, Florida. Members of my team 
were at the airport awaiting flights to visit their families when a man 
walked up to me, shook my hand and thanked me for doing the work I do 
in AmeriCorps. He later told me that he was the recent recipient of a 
Habitat for Humanity home built by an AmeriCorps*NCCC team the prior 
year. With tears in his eyes, he told me that he developed a renewed 
faith in the government and the youth of America. As he said, ``It's 
easy to go about your life thinking no one cares, but then a group of 
motivated individuals come and you find your spirits raised. You kids 
don't just work; you elevate a person's faith in society. You will 
always be welcome in my house.''
    When I flew home that day, I had never felt as proud of my 
involvement in a program. AmeriCorps*NCCC remains a distinct piece of 
my identity and how I choose to define myself.
    This summer I was astounded when my mother, a New York City 
teacher, told me that an NCCC team from the Perry Point, Maryland 
campus was working in her school. She told the Corps members that only 
a few months prior, her son was traveling around the country doing the 
same good work that they were doing. I can only hope that her words 
provided a similar awakening and a deep understanding--that they are 
not alone, but a part of something greater than themselves, a national 
organization of people dedicated to making positive changes in the 
world.
    In a time when disaster recovery and homeland security top our 
nation's priorities, a strong and well-trained AmeriCorps*NCCC is vital 
to victims' immediate and long-term needs. From day one at NCCC, we 
trained in disaster relief services and were ready to deploy at a 
moment's notice. After hurricanes Rita and Katrina, every team from our 
campus except my team and one other deployed to the Gulf Coast. 
Although this decision was completely out of my hands, it was hard to 
accept that we were left behind. We knew that we had important service 
work to complete in other parts of the country, but the Gulf Coast work 
was where the real excitement and hands-on opportunities were. In the 
Gulf, my fellow Corps Members were working tirelessly around the clock 
to field calls, remove debris, staff supply warehouses and coordinate 
relief efforts. I will never forget my friend, Elijah Washburn's story 
about how he single-handedly coordinated a team of medical volunteers 
for a residential doctor who established a clinic on his front lawn, in 
Pascagoula, Mississippi, to treat local residents. During and after any 
disaster, NCCC members are prepared to play a vital role in managing 
relief efforts.
    National and community service is one of the most important 
missions a government can pursue, especially for a country that funds 
so many programs to help the rest of the world. The fact that an 
organization like AmeriCorps exists renews my faith in our national 
agenda and elected officials. Although the program is only 10 months in 
length, I believe that my experience will stay with me for a lifetime.
    AmeriCorps*NCCC establishes national and community service as a way 
of life. I speak for all my fellow teammates when I say that 
AmeriCorps*NCCC leads to a lifetime of service. My friends from the 
National Civilian Community Corps are now America's firefighters, Red 
Cross staff, medical students, counselors, volunteers, teachers and 
yes, AmeriCorps members engaged in another year of service. 
AmeriCorps*NCCC creates a new breed of young and passionate leaders 
that are in tune with the needs of the country and intensely dedicated 
to national and community service.
    Thank you again for your invitation to speak. If you have any 
questions, I would be very happy to answer them.
                                 ______
                                 
    Chairwoman McCarthy. Thank you for your enthusiasm.
    Mr. Daigle, 5 minutes.

      STATEMENT OF THOMAS DAIGLE, FORMER AMERICORPS MEMBER

    Mr. Daigle. Madam Chairperson and members of the committee, 
thank you for having me. It is an honor to be able to sit here, 
especially next to a fellow AmeriCorps.
    So, hello, my name is Tommy Daigle. I was an AmeriCorps 
member with Habitat for Humanity in Charlotte, North Carolina, 
from August of 2004 until July of 2006. I served two 1-year 
terms immediately following my graduation from George Mason 
University.
    It is a fantastic life-changing and humbling experience 
that developed my leadership skills through day-to-day physical 
labor, confronting new and different life experiences, helping 
others, interacting with people of all ages from all over the 
world, serving in a leadership capacity for people many decades 
my senior and feeling the exhausted satisfaction at the end of 
every day that I had done something for someone else.
    Why don't I take a moment to tell you how I came to service 
and what it has done for me. Both my parents are teachers, and 
they, from a very young age, instilled in me ideas and 
principles of social justice. I learned from them that when 
something is wrong you do have the power to change it, and you 
do owe it to your community, and even more so to the world, to 
put your ideals in motion and provide for its betterment. They 
never told me that I had to serve, but they raised me to be 
responsible and to know that I could make a difference.
    Mary Kay Turner taught my 11th grade world religions class 
and my 12th grade ethics class. She taught us to look at things 
in this world, good or bad, and make an informed opinion about 
them. She taught us not to sit and watch things happen but to 
use the knowledge and our opinions to get involved.
    We studied human rights leaders and activists throughout 
history, we studied movements of major non-violent social 
change. We studied and mourned those who were killed because of 
hatred, notably Mathew Shepard and James Byrd; both who were 
murdered in my senior year of high school.
    Mrs. Turner taught us that a broken system could be fixed, 
but it would never be fixed with complacency. If there were 
going to be changes, we would have to make them ourselves.
    The first time I ever heard about AmeriCorps was from a 
high school acquaintance who had joined AmeriCorps NCCC 
straight out of high school. I ran into him randomly a couple 
years later, and I barely noticed him, he changed so much. In 
high school, he had gotten into a whole lot of trouble. He 
barely graduated, he almost dropped out, and he had maybe a 
little more than experimented with drugs. After AmeriCorps, he 
was drug-free, attending college, and was continuing to 
volunteer, very enthusiastically, I will add. It left me with a 
very strong first impression of AmeriCorps.
    When I started researching how I could work with Habitat, I 
found out Habitat was an AmeriCorps grantee, and it seemed like 
a great fit. I decided to commit a year's service to Habitat 
AmeriCorps in North Carolina, and after that first year, as I 
had made my plan, I would return to Virginia and teach in the 
public schools. Needless to say, that 1 year ended up turning 
into 2.
    I had a good 2 years down there. We worked in 10-and 11-
person teams based in Charlotte. We served as crew leaders for 
groups of people made up of bankers, lawyers, World War II 
vets, carpenters and home owners. They came to us, asked us 
what to do and expected us to be their leaders. We became a 
very tight-knit group.
    Over the 2 years, we built in the range of 100 homes in 
Charlotte, we led and worked with roughly 5,000 volunteers, and 
we grew into mature citizens. In addition to the work in 
Charlotte, we worked on houses in Fort Myers, Florida, Dallas, 
Texas and after Hurricane Katrina, in Jackson County, 
Mississippi.
    Serving in AmeriCorps prompts a growth in maturity in 
almost all members. Your job becomes a lifestyle that 
recognizes that you are working for things that are greater 
than yourself. There is a change in persona that occurs when 
you realize that you are making a concrete difference in 
another person's life. There is also a sense of civic duty and 
civic pride when you realize a change to the community that you 
are apart of.
    I want to tell a quick story that reinforces my belief in 
the importance of service and the jobs which we do. In the 
early summer of 2006, all Habitat AmeriCorps members met in 
Dallas, Texas, to build several houses. My teammates worked on 
a house along side the homeowners and AmeriCorps members from 
Fort Collins, Colorado; College Station, Texas; and Seattle, 
Washington.
    The house we were building, and the one next door, were 
both for former residents of the Lower Ninth Ward of New 
Orleans. We quickly became close friends with the other 
AmeriCorps members working on the house and got to know the 
family who, in a few weeks, would be moving in. The family was 
made up of a married couple in their late 50s and their young 
granddaughter. They had been separated in the storm and were 
reunited months later in Dallas.
    Over a work week of 12-hour days we laughed, became close, 
worked hard and built a beautiful house. We were very proud of 
the results.
    At the dedication ceremony, we crowded together on the 
front porch and listened as the Dallas Habitat staff member 
presented a Bible, a loaf of bread, and a bottle of grape 
juice.
    The family was given an opportunity to give their thoughts. 
As they had explained how they were happy to be in New Orleans 
only to lose everything, the emotion overtook them. They held 
onto each other, crying, unable to do anything other than thank 
us and thank God for a new beginning. We could only 
congratulate them on the new start and thank them for what they 
had given us.
    We left Dallas convinced of the importance of our service 
and of the impact that it not only had on the families and 
communities but upon each of us. The big question that many of 
the teammates and friends would later share with me was this: 
Whose life was changed more by our service; did the work do 
more for the family or more for us? It is a question that 
outsiders laugh at but everyone who has served understands.
    I have met hundreds of AmeriCorps members through Habitat. 
Of the members that I have actually served with, more than half 
are currently serving with other nonprofits or in a public 
service capacity. Every person I served with continues to 
volunteer. Service sticks, and my teammates are proof of that.
    Thank you for your time, and I would be happy to answer any 
of your questions.
    [The statement of Mr. Daigle follows:]

     Prepared Statement of Thomas Daigle, Former AmeriCorps Member

    Hello. My name is Tommy Daigle. I was an AmeriCorps member with 
Habitat for Humanity in Charlotte, North Carolina from August, 2004 to 
July ,2006. I served two one-year terms immediately following my 
graduation, cum laude, from George Mason University. It was a 
fantastic, life-changing, and humbling experience that developed my 
leadership and life skills through day to day physical labor, 
confronting new and different life experiences, helping others, 
interacting with people of all ages from all over the world, serving in 
a leadership capacity for people many decades my senior, and feeling 
that exhausted satisfaction at the end of every day--that I had done 
something for someone else.
    Right now I am working as a bike messenger because I am dedicated 
to service and I need a flexible job until I finish work as a lead 
organizer for the Bike and Build team that will ride across the country 
this summer. This project will raise money for affordable housing 
organizations and will work at Habitat builds along the way. Once I 
finish that project, I will either attend law school, where I will 
study civil rights law, or I will go back into teaching. In the 
meantime, bike messengering gives me flexibility to dwell on service 
projects that a typical 9-5 job would not.
    I want to tell you how I decided to focus my life on service, and 
what that has done for me.
    I have three teachers to thank for my love of service: my Father, 
Donald Daigle, a teacher in Catholic schools and at Northern Virginia 
Community College; my Mother, Margaret Daigle, a special-ed teacher in 
the Fairfax County, Virginia public schools; and my high school 
teacher, Mary Kay Turner, who is now retired from Bishop O'Connell High 
School in Arlington, Virginia.
    My parents instilled in me social justice principles. I learned 
from them that when something is wrong, you have the power to change it 
and you owe it to your community, and the world, to put your ideas in 
motion and provide for its betterment. They taught me that I truly am 
my brother's keeper and I always will be. They never told me that I had 
to serve but they raised me to be responsible and to know that I could 
make a difference. Service is my path to change.
    Mrs. Turner taught my high school World Religions class when I was 
a junior and my Ethics class when I was a senior. She structured the 
class like a philosophy class, with strong ideals of Catholic social 
justice woven throughout. While she taught about broad concepts she 
taught us to look at things in this world, good or bad, and to form an 
educated opinion about them. She taught us not to sit and watch things 
happen but to use the knowledge and our opinions to get involved. We 
studied human rights leaders and activists throughout history. We 
studied movements of major non-violent social change. We also studied 
and mourned those who were killed because of hatred, notably Mathew 
Shepard and James Byrd; both were murdered in my senior year. Mrs. 
Turner taught us that a broken system could be fixed, but it would 
never be fixed with complacency. If there were going to be changes, we 
would have to make the changes ourselves. Mrs. Turner gave us the 
opportunity to put our fledgling ideals into action thru many service 
and activist possibilities she provided.
    In college, I focused on my studies so that I would be a strong 
teacher. While this was a good thing, it took me away from my ideas of 
direct service as a means of change. In my last year I took a class 
entitled ``Art as Social Action.'' The professors, Lynn Constantine and 
Suzanne Scott, were both brilliant educators and their class was the 
boost that I needed. On the first day of class they presented us with a 
quote from Bertolt Brecht, ``Art is not a mirror to reflect society but 
a hammer with which to shape it''. The quote fit perfectly and I 
decided instead of going directly into public school teaching I would 
serve for a year with Habitat for Humanity. I only had to find the 
means to do it.
    The first time I ever heard about AmeriCorps was from a high school 
acquaintance who joined AmeriCorps*NCCC when he was 18. I barely 
recognized him a few years later. While in high school he had gotten in 
trouble, experimented with drugs, and almost dropped out. After serving 
with AmeriCorps he was drug-free, attending college, and continuing to 
volunteer. It left me with a strong first impression of AmeriCorps. I 
researched how I could work with Habitat for Humanity and found that 
Habitat for Humanity was an AmeriCorps grantee. I realized I could help 
people who needed homes and serve in AmeriCorps. It seemed like a great 
fit.
    Another friend put me in contact with her cousin who served in 
AmeriCorps Habitat. I called her, thinking we would have a five minute 
conversation. She spent an hour of her time telling me all about her 
experiences and what to expect if I joined. I was taken aback that a 
stranger would spend so much time advising me. One of the things I now 
know is that that is so typical of people who serve in AmeriCorps. They 
want to tell others about their experience because they want them to 
have the same life-change opportunity to serve.
    Weeks later, I decided to commit a year of service to Habitat 
AmeriCorps in Charlotte, North Carolina. After the year, I would return 
to Virginia to teach in the public schools. Needless to say, one year 
turned into two.
    I had a fantastic two years. We worked in 10 and 11-person teams 
based in Charlotte. We served as crew leaders for groups of people made 
up of bankers, lawyers, World War II vets, carpenters, and homeowners. 
They came to us, asked us what to do and expected us to be their 
leaders. We all grew up a lot in the first few weeks, and we became a 
very tight-knit group. Over the two years we built close to 100 houses 
in Charlotte, led and worked with over 5,000 volunteers, and grew into 
mature citizens. In addition to the work in Charlotte, we worked on 
houses in Ft. Myers, FL, Jackson County, MS, and Dallas, TX.
    The structure of the Habitat Charlotte program incorporated 
AmeriCorps in everything we did--all the staff and volunteers 
understood what AmeriCorps was about and certainly had a great 
appreciation for the support AmeriCorps brought to the program. The 
training we received was very good. The supervisors were quick to give 
us responsibility and to put us in leadership situations but would only 
do so once they were confident that we would were up to the task. 
Within a few months all members were routinely running crews unassisted 
by staff members. For most of us this was our first experience in a 
managerial role.
    Serving in AmeriCorps prompts a growth of maturity in almost all 
members. Your job becomes a lifestyle that recognizes that you are 
working for things that are greater than yourself. There is a change in 
persona that occurs when you realize that you are making a concrete 
difference is another person's life. There is a sense of civic duty and 
civic pride when you realize the change in the community that you are a 
part of.
    I want to tell a quick story that reinforced my belief in the 
importance of our job. In the early summer of 2006, all Habitat 
AmeriCorps members met in Dallas, Texas, to build several houses. My 
teammates worked on a house along side the homeowners and AmeriCorp 
teams from Ft. Collins, Colorado, College Station, Texas, and Seattle, 
Washington. The house we were building, and the one next door, was for 
former residents of the Lower Ninth Ward of New Orleans who had lost 
everything in Hurricane Katrina. We quickly became close friends with 
the other AmeriCorps members working on the house and got to know the 
family who, in a few weeks, would be moving in. The family was a 
married couple in their late 50's and their young granddaughter. They 
had been separated in the storm and were reunited months later in 
Dallas. Over a work week of twelve hour days we laughed, became close, 
worked hard, and built a beautiful house. We were proud of the results.
    At the dedication ceremony, we crowded together on the front porch 
and listened as the Dallas Habitat staff member presented a Bible, a 
loaf of bread, and a bottle of grape juice. The family was given an 
opportunity to give their thoughts. As they started to explain how they 
had been happy in New Orleans and then lost everything, were separated 
in the evacuation of the Superdome and convention center, and had not 
known if the other had even survived, emotion overtook them. They held 
onto each other, crying, unable to do anything other than thank us and 
thank God for the new beginning. We could do nothing other than 
congratulate them on the new start and thank them for what they had 
given us.
    We left Dallas convinced of the importance of our service and of 
the impact that it had not only on the families and communities, but 
upon each of us. The big question that many of my teammates and friends 
would later share with me was this: ``Whose life was changed more by 
our service; did the work do more for the family or for us?'' It's a 
question that outsiders laugh at but those who have served understand.
    I've met hundreds of AmeriCorps members through Habitat. Of the 
members I actually served with, more than half are currently serving 
with other nonprofits or in a public service capacity. Every person I 
served with continues to volunteer. Service sticks. My team members are 
proof of that.
    The message I want to leave you with is that AmeriCorps members are 
working to make our country greater. We're proud of our work to improve 
our country and our communities. We hope that more opportunities will 
be made available to younger and older Americans. We have a lot of work 
to do and there's an opportunity for every passion.
    Thank you for this opportunity to tell you about my experience in 
AmeriCorps. I would be happy to answer any questions you have.
                                 ______
                                 
    Chairwoman McCarthy. Thank you for your testimony.
    Mr. Moore, 5 minutes.

  STATEMENT OF GEORGE H. MOORE, EXECUTIVE DIRECTOR, COMMUNITY 
                        PROGRESS COUNCIL

    Mr. Moore. Good afternoon. Thank you, Chairwoman McCarthy, 
for inviting me to testify at the subcommittee.
    Thank you, Representative Platts, for your caring and 
committed representation of York County, Pennsylvania.
    My name is George Moore. I am the executive director of 
Community Progress Council, Incorporated, the federally 
designated community action agency for York County, 
Pennsylvania.
    I am going to just avert from what I have in my prepared 
remarks, only to say that I am very, very comfortable here 
today, certainly surrounded by Mr. Platts, a very diverse 
committee that I recognize and appreciate, and a picture of 
Congressman Goodling, who for a long time provided service in 
our community, preceding Mr. Platts.
    And, certainly, I am honored to be here with the other 
presenters today. Particularly impressed with the AmeriCorps 
workers themselves and their stories.
    Mr. Sarbanes has left but I need to recognize him also. I 
had to make an unexpected diversion through his city of 
Baltimore today, as 695 was closed in both directions on my 
trip down here. It made for quite an adventure.
    Thank you.
    For 8 years, we have had the privilege of administering the 
Foster Grandparent Program through a grant from the Corporation 
for National Community Services. The program has been very well 
received by our board of directors, the agency staff, clients 
and the community. With the Foster Grandparent volunteers, I 
frequently hear from them, ``The program and the children that 
we serve give me a reason to get up every morning.''
    The mutual benefits that the at-risk youth and foster 
grandparents receive from each other are beyond measure. 
Children get compassionate one-on-one attention from a caring 
foster grandparent volunteer. The volunteers have a new purpose 
and meaning in their lives.
    In addition, there are physical benefits to the volunteers. 
By being busy and physically active, they are helped by having 
lower blood pressure and lessened effect of diabetes.
    Some of the background of our York County program I would 
like to share with you. Since the Foster Grandparent program 
started 8 years ago in York County, 132 volunteer foster 
grandparents have served approximately 375,000 hours. Forty-two 
of our volunteers have met and well exceeded the president's 
challenge by serving over 4,000 hours, earning them the 
lifetime presidential volunteer service award. Over the past 12 
months, 63 volunteers have served over 58,000 hours, serving 
well over 350 children needing individual attention at 15 sites 
in York city and county. Five of them are faith-based 
institutions.
    At the end of the 2005-2006 school year, elementary 
teachers reported that children assigned to the Foster 
Grandparents, 91 percent of the children demonstrated 
improvements in reading, 92 percent improved their math skills, 
and 94 percent showed improvement in spelling skills. At the 
end of the 2006 school year, Head Start teachers reported that 
the children assigned to Foster Grandparents, 82 percent of the 
children were at age level of cognitive development and 
demonstrating a 7 percent increase since mid-school year, 86 
percent were at level for social skills with an increase 26 
percent since mid-year.
    I think one of the best ways to put a face on some of the 
programs is just to share letters that I have received from 
some of the groups that we have partnered with.
    This one is about a Grandma Sue who is a wonderful person. 
``We are lucky to have her as an assistant in our classroom. 
She brings instant energy to the class the second she walks in. 
Her responsibilities involve many areas. She supplies one-on-
one instruction with individual students, she gives guidance 
and helps to develop self-confidence in our students, she 
discusses decision making to help the students understand the 
consequences of the choices that they make.''
    Another letter, I think, addresses one of the other 
questions. This is a letter that was written to the 
superintendent of the York city school district at the time. 
The letter is dated 2002, and it is from a Jim Sheffer, the 
Division of Federal Programs for the Department of Education in 
the state of Pennsylvania.
    ``No Child Left Behind law is new and emphasizes the 
importance of paraprofessionals. Everyone has a sharp interest 
in paraprofessionals. One of these persons who has an interest 
is my wife, Sam Sheffer, who teaches kindergarten at McKinley 
Elementary School in York, Pennsylvania.
    This program is important because of grandparents like 
Geraldine Buchanan. From the day the law was passed, Sam 
continually reminds me of the importance of Community Progress 
Council's Foster Grandparent Program. Ms. Buchanan is on time, 
works hard and helps the kindergarten children.
    Thank you.
    [The statement of Mr. Moore follows:]

   Prepared Statement of George Moore, Executive Director, Community 
                            Progress Council

    Thank you, Chairwoman McCarthy for inviting me to testify at the 
subcommittee.
    Thank you, Representative Platts, for your caring and committed 
representation of York County, Pennsylvania.
    My name is George Moore. I am the executive director of Community 
Progress Council, Incorporated, the federally designated community 
action agency for York County, Pennsylvania.
    I'm excited to testify in front of this committee, surrounded by 
Mr. Platts, and in front of a picture of Congressman Goodling who for a 
long time provided service in our community preceding Mr. Platts. And, 
certainly, I'm honored to testify with the other presenters.
    For eight years, we've had the privilege of administering the 
Foster Grandparent Program through a grant from the Corporation for 
National Community Services. The program has been very well received by 
our board of directors, the agency staff, clients and the community. 
With the Foster Grandparent volunteers, I frequently hear from them, 
``The program and the children that we serve give me a reason to get up 
every morning.''
    The mutual benefits that the at-risk youth and foster grandparents 
receive from each other are beyond measure. Children get compassionate 
one-on-one attention from a caring foster grandparent volunteer. The 
volunteers have a new purpose and meaning in their lives.
    In addition, there are physical benefits to the volunteers. By 
being busy and physically active, they are helped by having lower blood 
pressure and lessened effect of diabetes.
    Some of the background of our York County program I would like to 
share with you. Since the Foster Grandparent program started eight 
years ago in York County, 132 volunteer foster grandparents have served 
approximately 375,000 hours. Forty-two of our volunteers have met and 
well exceeded the president's challenge by serving over 4,000 hours, 
earning them the lifetime presidential volunteer service award. Over 
the past 12 months, 63 volunteers have served over 58,000 hours, 
serving well over 350 children needing individual attention at 15 sites 
in York city and county. Five of them are faith-based institutions.
    At the end of the 2005-2006 school year, elementary teachers 
reported that children assigned to the Foster Grandparents, 91 percent 
of the children demonstrated improvements in reading, 92 percent 
improved their math skills, and 94 percent showed improvement in 
spelling skills. At the end of the 2006 school year, Head Start 
teachers reported that the children assigned to Foster Grandparents, 82 
percent of the children were at age level of cognitive development and 
demonstrating a 7 percent increase since mid-school year, 86 percent 
were at level for social skills with an increase 26 percent since mid-
year.
    I think one of the best ways to put a face on some of the programs 
is just to share letters that I've received from some of the groups 
that we've partnered with.
    The one is about a Grandma Sue who is a wonderful person. ``We are 
lucky to have her as an assistant in our classroom. She brings instant 
energy to the class the second she walks in. Her responsibilities 
involve many areas. She supplies one-on-one instruction with individual 
students, she gives guidance and helps to develop self-confidence in 
our students, she discusses decision making to help the students 
understand the consequences of the choices that they make.''
    Another letter, I think, addresses one of the other questions. This 
is a letter that was written to the superintendent of the York city 
school district at the time. The letter is dated 2002, and it's from a 
Jim Sheffer, the Division of Federal Programs for the Department of 
Education in the state of Pennsylvania.
    ``No Child Left Behind law is new and emphasizes the importance of 
paraprofessionals. Everyone has a sharp interest in paraprofessionals. 
One of these persons who has an interest is my wife, Sam Sheffer, who 
teaches kindergarten at McKinley Elementary School in York, 
Pennsylvania.
    This program is important because of grandparents like Geraldine 
Buchanan. From the day the law was passed, Sam continually reminds me 
of the importance of Community Progress Council's Foster Grandparent 
Program. Ms. Buchanan is on time, works hard and helps the kindergarten 
children.
    Thank you.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Mr. Moore. Appreciate it.
    There are so many questions, and I have a few questions in 
front of me, but as each of you spoke, I am going, ``Okay, I 
want to ask each and every one of you a question.'' So I am 
probably going to have to follow up with you after the hearing 
so I can get your input.
    Now, Mr. Edelman, when you started, as you got into the 
program--actually, both of you, but also hearing on both sides 
talking about the Grandparents Program, how do we bring more 
people into the program and what can this committee do to help 
you reach out so on each segment of all the different programs 
that we can have the volunteers come in?
    Because, obviously, we need to constantly replace--I guess, 
certainly, the area that I am most interested in is that in my 
district we have a lot of underserved schools, we have a lot of 
gangs, and I certainly have been doing everything I possibly 
can to reach out on how to solve this problem. I know a number 
of times we have been talking about how do we get involved with 
children in middle school?
    Because we all are on the Education Committee, and with all 
the programs that are going on, we always seem to miss out on 
the middle school kids, and by the time they get to high 
school, a lot of times they have dropped out and we can't find 
them.
    So if anyone would--Mr. Edelman?
    Mr. Edelman. In relation to AmeriCorps NCCC, I think, first 
and foremost, the best thing that you could do is reauthorize 
funding for the program. Not doing so and not having secure 
funding greatly it sends the wrong message to anybody that is 
interested in the program. You don't know how disheartening it 
is to be accepted to a program and show up for training, yet 
you know that at any time funding could be cut and you could be 
sent home.
    I think there are a lot of people out there that are 
interested in the program and would consider joining the 
program but are uncertain because they are unaware of where the 
direction of the program is going, and they don't feel secure 
whether or not the program is going to be there to support 
them.
    So I think that is the first thing that you can do.
    Secondly, I think it is very, very important to in addition 
to continuing to give corps members the opportunity to promote 
the program through--in AmeriCorps, everybody has a specific 
team job. So one of them is specifically to promote the program 
and to go to community service organizations and speak at 
schools about AmeriCorps for recruitment purposes, which is 
wonderful, because you get people that are directly in the 
program that are advocating for the program, and they do, 
myself and the rest of our corps members, a wonderful job 
recruiting.
    Yet, I think a lot more can be done. I know firsthand that 
the program operates with very limited resources and, 
basically, they expect us to do a large part of the work. We 
need funds in order to maintain the work that we do but also to 
give our staff the opportunity to produce materials and to 
advertise to the larger community and to the country.
    And then, thirdly, I think another important thing is to 
maintain relations with AmeriCorps alumni. I think as an 
alumni, you are an incredible resource to the organization. You 
can become an advocate, and you also have the opportunity to, 
regardless of where your profession goes, to speak about the 
program, to involve people in the program and to educate people 
to that program.
    So I know that there are many organizations in the process 
of doing that with AmeriCorps alumni, and I strongly suggest 
that other organizations continue and put more effort into 
maintaining relationships with their alumni so they could build 
a base from the bottom up.
    Mr. Gomperts. I think one of the big, open questions is, 
how are we going to attract members of the baby boom 
generation--and I think many of us sitting around here are that 
generation--into service and volunteering in the future. We 
know a lot about programs that have operated in the past and 
very, very successfully, but when you look at those programs 
and you look at the demographics and education levels and so 
forth of baby boomers, it is not a perfect match. And that is 
why I say, I think we really need to use our imaginations to 
try to figure out what would attract us.
    We did a survey last year with the MetLife Foundation and 
found that in fact members of the baby boom generation are 
very, very interested in working for the greater good. More 
than 50 percent of boomers say they would like to be involved 
in education or health care or social services. Only 12 percent 
of them think that there are opportunities for them to do that. 
There is a mismatch that people are there but the opportunities 
aren't there.
    And if we think about ourselves, put ourselves into the 
picture, this is something we try to do at Experience Corps, 
our little motto to ourselves is, real problems, real work, 
real results. This boomer generation is one that has heard a 
lot about accountability and I think believes in 
accountability. I don't think people want their time wasted or 
used frivolously. They want to do things that really matter on 
the hardest problems.
    So as we think forward how to shape the kind of activities 
that engage people, let's not try to candy coat it or make it 
easy. Let's focus on big things that need to be done and giving 
people real responsibilities for getting them done.
    Chairwoman McCarthy. Thank you. Unfortunately, my time is 
up.
    Mr. Platts?
    Mr. Platts. Thank you, Madam Chair. I, again, appreciate 
all of your testimonies and the different insights you bring to 
this important issue.
    I may have attributed the statement earlier to the wrong 
witness, but, Mr. Daigle, I think you, in your written 
testimony, talked about service sticks and then also you said 
earlier in your testimony, ``Service is my path to change.''
    Both of those statements are probably good, kind of, mottos 
or slogans for what we are talking about here and the 
importance of getting young people involved and how that will 
continue to benefit the community and also that true individual 
effort we can make a difference. And I certainly commend your 
parents that you reference in your testimony for their service 
as teachers and also the example they set for you, as you 
shared.
    I do want to get, Mr. Moore, George, to your testimony and 
expand on--you referenced the 15 programs. I thought it might 
be helpful if you give an example of the different types of 
settings in which your foster grandparents are working. I know 
some is with the York city school district but some are faith-
based.
    If you can give, kind of, not all of the settings but an 
example of the different types of settings that you are 
partnered with.
    Mr. Moore. Certainly. Some of the sites are--a number of 
them are with public school settings, York city schools, with 
the elementary and middle school children. We have foster 
grandparents assigned to Head Start classrooms throughout York 
County. We have foster grandparents assigned to York Day 
Nursery, which is a private, nonprofit daycare program. 
Manitou, which is a middle school and high school program for 
troubled youth, has worked very well with our foster 
grandparents. I am trying to think of some of the other 
locations.
    Mr. Platts. Well, maybe a follow up of those different 
types. How did they come to you or you partner with them? How 
does that interrelationship occur and are there others who you 
are reaching out to or that are soliciting you to partner 
further with them?
    Mr. Moore. Yes, it really works both ways. Some folks we 
have met almost serendipitously in another meeting or setting 
and talked about what we had and they expressed some interest. 
We have also done outreach and kind of approached sites that we 
thought would work well.
    The Manitou site was one that we found really challenging 
and weren't sure whether the foster grandparents would be 
comfortable in that setting, and it takes the right match with 
the right grandparent to do that. And from the very onset of 
the program there were two that just were enthused beyond 
understanding to work with them, wanted to continue and spent a 
number of years involved with them, and that involvement 
continues.
    One of the other sites too is called the River Rock 
Academy, which is an alternative secondary school, so it is a 
very broad group of organizations that partner with us.
    Mr. Platts. In your testimony, you said that mutual benefit 
to the grandparents and the students, the children, is not 
measurable because it is, a common term now, priceless because 
there is such a significant gain to both. But you did share 
some examples on the academic side, both in the school setting 
and the Head Start academic.
    With the Manitou program, where it is youth that have 
gotten into some trouble, are there any outcomes that you have 
been able to identify that those who have participated in the 
Foster Grandparent Program that have kind of turned themselves 
around in the disciplinary area?
    Mr. Moore. I don't have any statistical information with 
me. I would be glad to try to get some, but I think part of the 
answer to that would be the highlight of one of our annual 
dinners at Community Progress Council. We were awarding a 
volunteer of the year award and it went to one of the foster 
grandparents who had worked with Manitou.
    The student from Manitou insisted on coming and speaking 
about how she had really reached out and really changed his 
life. It is that personal involvement and contact that really 
makes a difference. They are not there as an authority figure, 
per se, they truly come across as the caring grandparent.
    Mr. Platts. That personal testimony by that student might 
be better than any statistic that you actually could offer.
    So thank you, Madam Chair, and, again, my thanks to all the 
witnesses for being here today.
    Chairwoman McCarthy. Thank you, Mr. Platts.
    Mr. Yarmuth for 5 minutes.
    Mr. Yarmuth. Thank you, Madam Chairwoman. I appreciate all 
your testimony.
    I am particularly interested, Mr. Edelman and Mr. Daigle, 
talking about and your discussing maybe your assessment of the 
types of people who get involved in AmeriCorps. You seem to 
come from fairly similar backgrounds, and I am interested in 
the extent of diversity in these programs and whether there 
might be things that the program could do or the way the 
program could be constructed that would help encourage more 
diversity if in fact that is a problem. You may disabuse me of 
that notion and say it isn't a problem.
    Mr. Edelman. In regards to AmeriCorps NCCC, I would say the 
program is diverse on so many levels. First off, one of the 
things inherently about the true, which is truly remarkable, it 
is specifically for 18-to 24-year-olds.
    The reason why that is so incredible is you have in the 
short year of ages the whole spectrum of people that have just 
graduated from high school, you have people that have some 
college experience underneath their belt and took a leave of 
absence in order to do a program like this, and you also have 
people that have recently graduated from college and then also 
people like myself who were involved in the business world for 
a year, didn't know exactly what they wanted to do and then 
used the program as a way of figuring out or beginning on a new 
path more in line with service work and their aspirations in 
life.
    So from that respect, it is wonderful because everybody 
mentors one another in terms of you have students that are just 
out of high school, this will be their first experience living 
on their own. And in addition to learning the life skills that 
you might learn in a college environment, you are getting an 
incredible sense of work experience and a wide range of 
different service options that you would never be exposed to in 
college.
    In addition to just being in the classroom, you are 
learning by doing, and you are learning about the numerous 
different ways that you can change America.
    And then in addition to that, you have people from all 
across the country, in all parts of the country. There were 
people from Puerto Rico, there were people from Hawaii. Every 
50 states is covered. So, again, it is an incredible learning 
opportunity, because in addition to traveling around the 
country, and for many youngsters this is the first time they 
have had the opportunity to do that, to actually develop an 
appreciation for their country. They are living with such a 
diverse group of students in terms of age, in terms of where 
they live and also in terms of ethnicity.
    Personally, I am Jewish and for many of the people that 
were in my program I was the first Jewish person that they have 
ever met. And it meant a lot to me, and it led to, in addition 
to the type of service work that we were doing, learning from 
one another in regards to our religion, our ethnicities and our 
belief systems.
    Mr. Daigle. If I may?
    Mr. Yarmuth. Oh, please.
    Mr. Daigle. Yes. I am glad that Mr. Edelman found that. In 
my program, in Habitat, a lot of us noticed that we felt like 
it was not very diverse at all.
    I say that because at orientation, and we came every 
August, we would be in an auditorium, I think it was maybe 350 
AmeriCorps, and it was mainly a post-college graduate crowd, 
and it was very few minorities, very few people who were not 
college educated. There were smaller age brackets. There were 
some older people, and there weren't that many exceptions.
    I know on my two teams, the first year, which was 10 
AmeriCorps, and the second year, which was 11, every person on 
there came from similar social backgrounds, every person on 
there was Caucasian, and it was something which we noticed and 
we weren't especially happy about.
    As for ways to recruit around that, I am not sure I have 
that many answers, other than the fact I think that a lot of--
when I look at the people I went to high school with, pretty 
much everyone, they did not know about the educational award, 
which AmeriCorps was providing. And that is a great thing to 
persuade many people to look to serve for a year. A year of 
service is going to be very doable, and you are given an 
education award at the end of it. It makes it a very good 
thing, something most people would like to do.
    And so I feel like if all the benefits are shown, it would 
open up a very wide range. Because I know in my circumstance 
and from the people I served with, most of us have gone through 
college and then decided to go and serve. It was a very 
straight path for most of us.
    Mr. Yarmuth. Thank you for your answers.
    Chairwoman McCarthy. The gentleman's time has expired.
    Mr. Sarbanes, 5 minutes.
    Mr. Sarbanes. Yes, Mr. Gomperts, I had a question about--I 
mean, I suffer from not being able to see how we shouldn't be 
doing everything we possibly can, every minute of the day to 
promote these programs. Because as Mr. Daigle said, it is hard 
really even to discern who is the greater beneficiary, whether 
it is the one who is providing the service or the one who is 
receiving the service. And, frankly, you can't even tell which 
party is which in the equation if you really step back and 
think about it.
    So I would like you to speak to what you see as any areas 
or constituencies of resistance to this volunteer army. For 
example, I know coming into the Teach for America Program in 
its early years, for example, encountered resistance from the 
establishment, however you want to describe that, when it came 
into some schools. I wonder if there are other examples of 
that, what you take from it, what we learned from that, what 
the implications are for where the limits on volunteer service 
may be, et cetera. If you could speak to that.
    Mr. Gomperts. It is a good and important question. I heard 
what David Eisner said about not federalizing everything, and I 
certainly agree with that. I am one--I think David is probably 
one too--who would love to see a much more universal kind of 
service in the United States.
    And service, as demonstrated by Representative Platts' 
engagement and others, engagement on the National Service 
Coalition, is service and volunteering enjoy really a lot of 
bipartisan support. That is a great thing. But it is very rare 
that it is the absolute passion of anybody in politics. Service 
is nice, volunteering is nice, but it is not at the heart of 
what we are doing; it is on the periphery, at the edges. That, 
I think, is the problem.
    There is not somebody who is against this or there are very 
few people who are against this in any passionate way. The 
problem is that those of us who are for it have not been able 
to rally the forces and the constituencies and the people in 
the country to think that this is really central.
    So you can't go through a presidential inaugural address 
without hearing about service and volunteering from Kennedy, 
Reagan, Bush, Clinton, Bush. It is always there. People love to 
talk about it, but when it gets to the hard business of 
creating programs, making the investments and backing them, 
that is where we have not yet found the steel in our spine.
    And I was saying to somebody back here, I am so encouraged 
by this hearing because there is so much interest, curiosity, 
willingness to question and be creative, and I hope that we can 
all work together to make this world for boomers, for kids, for 
communities much larger over the next few years.
    Mr. Sarbanes. One last question, and I am right in sync 
with you here, and I think you are sort of describing there are 
hard things and there are soft things, and this kind of service 
stuff tends to get pushed into the category of soft when if you 
did the economic analysis, for starters, leave aside the impact 
on people's lives and individuals, just straight economic 
analysis, it would compare favorably against anything else that 
gets attention and is, sort of, really the hard stuff.
    Speak, if you will, just briefly to the whole issue of 
voluntary versus mandatory service obligations. My sense of it 
is that we haven't fully tested the proposition of whether if 
we created voluntary service opportunities for people, they 
would take full advantage of it. So to talk about mandatory 
service is premature, but maybe it takes that kind of a 
structure to encourage the involvement. Can you speak to that?
    Mr. Gomperts. Absolutely. I think that is a great question 
again. Back to the thing about soft, we always used--we talk 
about trying to move from nice to necessary. Nice is great but 
it doesn't really cut it, ultimately.
    And one of the problems, I think, is that the term, 
``volunteer,'' covers everything from people who do nice things 
to people who do the most essential kind of work in our 
communities. For us, at Experience Corps, the key is really to 
focus on the most important problems in the neediest 
communities. That is the work that really needs to get done.
    As to universal service and mandatory, Maryland has moved 
toward mandatory service learning, I think with a lot of 
success. But I don't think we are a country that loves 
mandatory anything, and I think that the whole venture would be 
much more successful if people rose to it, if there were a 
call, a universal call, and universal opportunity for 
everybody, from little kids to these guys' age, to my dad's age 
and all of us in between, to engage in things that really make 
a difference in the community, things that are nice but 
necessary as well.
    Chairwoman McCarthy. The gentleman's time has expired.
    Mr. Grijalva, 5 minutes.
    Mr. Grijalva. Thank you, Madam Chair.
    My colleague Mr. Sarbanes' questions were excellent, and 
your responses provoke a lot of thought and discussion.
    I was going to ask you something else but following up on 
the questions of my colleague, American people don't like 
mandatory. They don't like mandatory drafts, they don't like a 
lot of other stuff.
    But let's go back to talking about this budget and what is 
going on with it. In terms of how do we incentivize because 
that is the other word now that is going around here, 
investment and incentives seems to be the catchphrases right 
now, how do we incentivize volunteerism in this country?
    And before you answer, let me--I don't have questions for 
Mr. Edelman or Mr. Daigle, just a thank you. My appreciation 
for the work. In a very narrow scope in my district were 
refugees, senior citizens, schools that are underserved, 
neighborhoods that need attention, young people that need our 
comfort. Thank you very much to you and countless colleagues 
that are not here today. I appreciate that very much.
    Mr. Gomperts?
    Mr. Gomperts. Well, on the point about mandatory, I think 
we are probably in agreement that a mandatory system is not in 
the cards right now. It might spark a good debate if somebody 
really seriously proposed a mandatory system in which all 
people when they graduate from high school or between the ages 
of 18 and 25----
    Mr. Grijalva. What would be the incentive?
    Mr. Gomperts. What would be the incentive for people to do 
that? Well, I think if you have a mandatory system, you don't 
need incentives, but I think we won't have a mandatory system 
and we will need incentives.
    I think there are certain financial incentives that are 
important. The AmeriCorps education award is important. The 
fact that AmeriCorps members get a stipend is important. I will 
tell you that for Experience Corps we get asked all the time, 
``Why are volunteers paid?'' And I will tell you that it 
creates a mutual accountability in which if you are paying 
somebody, even a small amount, I mean, these are part-time 
AmeriCorps members, they are getting a very modest amount, like 
$200 a month.
    It means, though, that they are being asked to do something 
serious and we expect them to do something serious. It goes the 
other way also. It means that they can hold us accountable for 
running a quality program, doing a serious job with what we are 
doing.
    So incentives for individuals, I think, are important. I 
think that there is a place for that global call to service, 
for leaders in government, in the private sector, in the 
nonprofit sector to be calling people out, that the problems 
that exist in this country are not those people's problems or 
those people's problems, the other guy's problems. They are all 
of our problems, and we all have a piece in solving those 
problems.
    And the last thing I would say is, I think that we need 
some incentives for organizations to seek out people. The most 
interesting things that are created, the most interesting ways 
of solving problems are generally not created in Washington. 
They are probably not even created in state capitals. They are 
not created in government. They are created by people like Alan 
Khazei and Michael Brown who Representative Sarbanes alluded 
to, or Wendy Kopp who created Teach for America.
    I think there are things that this committee, this Congress 
and the government can do to make those kind of social 
entrepreneurs, to give more support to those kinds of social 
entrepreneurs to create the new, exciting programs that will--
and they, in turn--you know, Wendy Kopp should ask somebody to 
join Teach for America than some government official.
    Mr. Grijalva. Thank you.
    I am very interested in Mr. Moore's testimony. You 
mentioned the documents that you provided the committee 
included a letter from the Department of Education, 
Pennsylvania, praising Foster Grandparent's work in his wife's 
classroom. And I was going to ask the same question to Mr. 
Gomperts, but it kind of ties together.
    As we look at reauthorizing No Child Left Behind, what is 
the role for the program you spoke of, even for Experience 
Corps and others, to play in this issue? In my state, out of 27 
service groups that are working with No Child Left Behind, four 
are community-based. The others are for-profit organizations. I 
mean, we are talking about incentives. Here is an opportunity.
    And I would just like your reaction where the program you 
spoke to would fit into that and how do you see it fitting in?
    Mr. Gomperts. Well, I see the Foster Grandparent Program 
and the foster grandparents themselves continuing to contribute 
to that effort. What we find is that the foster grandparents, 
by working in their community schools, know many of the 
children. They are from their neighborhoods, they are from 
their community. Even the ones they don't know they find a 
connection with. They may know other family members and they do 
wind up having a real caring personal interest in those 
children and in their community schools.
    In the rural areas, it is a little bit more of a challenge. 
One of the things that we find as a real disincentive is just 
the cost of travel for those foster grandparents to get to 
their sites. For the last 3 years, we have been working with 
the same level of funding, and it has made it very challenging. 
We have not been able, as the cost of travel or gasoline 
reimbursement has gone up, we have had very, very limited 
resources to be able to reimburse those folks. In the more 
urban or city areas, we have been able to provide 
transportation using mass transit.
    Mr. Grijalva. My time is up, but I want to follow up with 
both of you, Mr. Gomperts and yourself, Mr. Moore, about how 
the organizations that you spoke of today will fit into that 
process of No Child Left Behind and making sure the kids being 
tested have attainment levels but beyond that that they have 
the service learning that is going to help them reach those 
attainment levels and that way supporting community-based 
organizations.
    I will follow up with that.
    Madam Chair, with that, I yield back.
    Chairwoman McCarthy. I thank the gentleman. If any member 
who wishes to submit follow-up questions in writing to the 
witness should coordinate with the majority staff within the 
requisite time--I just want to finish this hearing.
    I think that you will find this a very unique subcommittee, 
because everyone on this committee actually asked to be on the 
committee. It wasn't a matter of an open spot or anything else 
like that. People wanted to be on this committee.
    And I know that many members of Congress probably do not 
really understand a lot of the programs that are out there, and 
that, again, is up to us on the committee to spread the 
message, talk to other members on why this is a good program, 
and by the way, which is very cost-effective, if you really 
look at. Because for each group that you reach out to, whether 
it is our young people, whether it is the foster children, it 
doesn't matter. In the end, we are going to end up saving 
money, in my opinion, on social services for the future and, 
certainly, hopefully, reaching out to our young people where we 
can prevent them from going to jail and become citizens for 
this country.
    So I think you will find that a lot of us do have 
differences of opinions on many issues, but I think that we 
will be working together.
    I also want to say that, as previously ordered, members 
will have 7 days to submit additional materials for the hearing 
record, and, again, I thank you for your testimony, and without 
objection----
    Mr. Platts. Madam Chair, may I just add, I know for the 
record that Mr. Moore is going to submit additional testimony 
or a very different form of his testimony for the record in the 
following days.
    Chairwoman McCarthy. Without objection.
    Mr. Platts. Thank you. And, again, I want to commend you 
for your leadership in starting this new session of this 
subcommittee with such an important issue as national and 
community service and look forward to working with you as we 
move forward.
    Thank you, Madam Chair.
    Chairwoman McCarthy. As I do with you.
    Thank you, Mr. Platts.
    By the way, this is a brand new gavel. I have never had one 
before. [Laughter.]
    So with the gavel, I adjourn the hearing. Thank you.
    [Whereupon, at 3:50 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
